<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION FOR FISCAL YEAR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  AN OVERVIEW OF THE BUDGET PROPOSAL
                 FOR THE NATIONAL AERONAUTICS AND SPACE
                  ADMINISTRATION FOR FISCAL YEAR 2016

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2015

                               __________

                           Serial No. 114-15

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov

              
              
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>  
             
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR,          ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, Texas
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                         Subcommittee on Space

                HON. STEVEN PALAZZO, Mississippi, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
STEVE KNIGHT, California             EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             April 16, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    21

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    22
    Written Statement............................................    23

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    24
    Written Statement............................................    25

                               Witnesses:

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    27
    Written Statement............................................    29

Discussion.......................................................    37

             Appendix I: Answers to Post-Hearing Questions

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration...........................    66

            Appendix II: Additional Material for the Record

Prepared statement submitted by Representative Eddie Bernice 
  Johnson, Ranking Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   162

 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                    FOR THE NATIONAL AERONAUTICS AND
               SPACE ADMINISTRATION FOR FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, APRIL 16, 2015

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Palazzo. The Subcommittee on Space will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``An Overview of the 
Budget Proposal for the National Aeronautics and Space 
Administration for Fiscal Year 2016.'' I recognize myself for 
five minutes for an opening statement.
    The first and perhaps most important point I want to make 
today is that I believe the taxpayers' investment in NASA is 
generally well spent, and that I support increasing NASA's 
budget if we're assured American access to space. Discretionary 
spending such as research and development investments at NASA 
is the seed corn of future economic growth. In order to 
preserve these activities, we must address the larger economic 
problems we face as a nation. This involves either complying 
with the President's Budget Control Act, which caps 
discretionary spending, or figuring out how to repeal, replace, 
or amend it. Unfortunately, this proposal does not do that.
    Because this request does not provide any constructive or 
workable guidance, Congress must now bear that burden. I had 
hoped that the Administration would demonstrate leadership by 
proposing a realistic budget, but instead we were presented 
with a list of unfunded priorities. At NASA alone, the 
President's request exceeds the budget caps by $519 million. 
This isn't to say that this is an unreasonable request. After 
all, the increase simply reflects the rate of inflation. The 
concern that I have is that the Administration did not propose 
offsets to account for the increase; did not propose a workable 
solution to repeal, replace, or amend the President's Budget 
Control Act; and once again reorganizes priorities in previous 
bipartisan NASA funding bills that the President signed. For 
example, the budget proposes cutting the Space Launch System by 
$344 million, the Orion crew capsule by $98 million, the 
Planetary Science Division by $77 million, the Heliophysics 
Division by $11 million, the Aeronautics Mission Directorate by 
$80 million, and NASA education by $30 million.
    SLS and Orion are national assets. They are the tip of the 
spear in our nation's deep space exploration efforts. Cuts to 
the Planetary Science Division will empty the pipeline for 
outer-planet missions and force scientists and engineers into 
other fields and to foreign projects. Cuts to Heliophysics are 
weakening our ability to understand and predict solar storms 
that could threaten astronauts in space, and impact 
communication, financial, and energy systems here on Earth. 
Cuts to NASA education hurt NASA's ability to engage and 
inspire the next generation of explorers.
    These harmful cuts accompany increased requests for other 
activities at NASA. The President's proposal seeks to increase 
the Earth Science budget by $175 million this year. This 
amounts to a 63 percent increase since 2007. The budget also 
seeks to dilute NASA's existing earth science research 
portfolio by conducting other agencies' work. It seeks to 
develop climate sensors for NOAA and land-imaging capabilities 
for USGS. While NASA certainly has the expertise to do this 
work, they don't have the budget or the requirements.
    NOAA is tasked with maintaining operational climate 
measurements, and USGS is tasked to maintain Landsat 
measurements. If NASA is tasked to do other agencies' work, it 
should do so on a reimbursable basis as it does successfully 
for other programs such as the Joint Polar Satellite System and 
the Geostationary Operational Environmental Satellite System.
    The budget request also seeks an increase of $129 million 
for the Space Technology Mission Directorate and $439 million 
for the Commercial Crew Program. I fully support developing the 
capabilities necessary to launch American astronauts on 
American rockets from American soil as soon as possible.
    I also believe that NASA should be investing in the 
technologies necessary to enable future exploration. Congress 
will have to evaluate these proposals to ensure that they are 
the most efficient uses of taxpayer resources in a challenging 
budget environment. For example, NASA has argued that it is 
necessary to fund two contractors in the Commercial Crew 
Program to provide a redundant capability and enable 
competition to drive down costs. That is why NASA selected two 
contractors last fall. Congress will have to decide whether a 
redundant capability is best provided by two contractors in the 
Commercial Crew Program, or by external capabilities such as 
the Orion crew vehicle on an existing launch vehicle. The NASA 
Authorization Act of 2010 requires NASA to ensure that Orion 
can serve as an emergency backup to the Commercial Crew 
Program. NASA has not devoted any effort to complying with this 
requirement.
    The benefits of cost competition also need to be weighed 
considering the government now has fixed-price contracts. 
Ultimately, Congress will have to decide whether the nation 
should develop a capability or should stand up a market.
    One thing that would assist Congress in evaluating this 
proposal is an independent cost estimate for the Commercial 
Crew Program. NASA previously contracted for an independent 
cost assessment, which only evaluated contractor-provided data. 
Now that we have fixed-price contracts from the contractors, 
NASA should initiate a more thorough independent cost estimate 
to determine whether the contractors can be reasonably expected 
to execute within cost and schedule.
    Another NASA activity that would benefit from an 
independent cost estimate is the Asteroid Redirect Mission. 
Unfortunately, NASA indicated that it was unnecessary to 
conduct an independent cost estimate prior to selecting 
optional mission concepts, despite a recommendation from the 
NASA Advisory Council. The ARM mission still hasn't garnered 
any support in academic, scientific, exploration, or 
international communities. NASA's own advisory bodies have 
heavily criticized the mission. Without consensus, without a 
realistic cost, and without a clear explanation of how it fits 
into a broader exploration architecture, it is tough to see how 
this proposal gains traction in the remaining 18 months of the 
President's term.
    NASA is at a crossroads. Unfortunately, the last six years 
featured drastic change with the cancellation of Constellation 
and uncertain direction with the President's ever-changing 
asteroid initiative. Congress has been consistent in its 
guidance to NASA that it develop a long-term sustainable 
exploration strategy that is evolvable and flexible based on an 
uncertain budget environment. Recent announcements from NASA 
indicate that the agency is heeding that direction by working 
towards an architecture that can weather the storms of change 
that accompany new Administrations. Administrator Bolden and 
his leadership team have a tough job. General Bolden, I am glad 
you are at the reins.
    [The prepared statement of Chairman Palazzo follows:]

              Prepared Statement of Subcommittee on Space
                        Chairman Steven Palazzo

    The first and perhaps most important point I want to make today is 
that I believe the taxpayer's investment in NASA is generally well 
spent, and that I support increasing NASA's budget. Discretionary 
spending such as research and development investments at NASA are the 
seed corn of future economic growth. In order to preserve these 
activities, we must address the larger economic problems we face as a 
Nation. This involves either complying with the President's Budget 
Control Act which caps discretionary spending, or figuring out how to 
repeal, replace, or amend it.
    Unfortunately, the President's budget proposal does not comply with 
his own Budget Control Act. Because the President failed to provide any 
constructive or workable guidance, Congress must now bear that burden. 
I had hoped that the Administration would have demonstrated leadership 
by proposing a realistic budget, but instead we were presented with a 
list of unfunded priorities.
    At NASA alone, the President's request exceeds the budget caps by 
$519 million. This isn't to say that this is an unreasonable request. 
After all, the increase just keeps up with inflation. The concern that 
I have is that the Administration did not propose off-sets to account 
for the increase; did not propose a workable solution to repeal, 
replace, or amend the President's Budget Control Act; and once again 
reorganizes priorities in previous bipartisan NASA funding bills that 
the President signed.
    For instance, the budget proposes cutting the Space Launch System 
(SLS) by $344 million; the Orion crew capsule by $98 million; the 
Planetary Science Division by $77 million; the Heliophysics Division by 
$11 million; the Aeronautics Mission Directorate by $80 million; and 
NASA education by $30 million.
    SLS and Orion are national assets. They are the tip of the spear in 
our nation's deep space exploration efforts. Cuts to the Planetary 
Science Division are emptying the pipeline for outer-planet missions 
and forcing scientists and engineers into other fields and to foreign 
projects. Cuts to Heliophysics are weakening our ability to understand 
and predict solar storms that could threaten astronauts in space, and 
impact communication, financial, and energy systems here on Earth. Cuts 
to NASA education hurt NASA's ability to engage and inspire the next 
generation of explorers.
    These harmful cuts accompany increased requests for other 
activities at NASA. The President's proposal seeks to increase the 
Earth Science budget by $175 million this year. This amounts to a 63 
percent increase since 2007. The budget also seeks to dilute NASA's 
existing earth science research portfolio by conducting other agencies' 
work. It seeks to develop climate sensors for NOAA, and land imaging 
capabilities for USGS. While NASA certainly has the expertise to do 
this work, they don't have the budget or the requirements. NOAA is 
tasked with maintaining operational climate measurements, and USGS is 
tasked to maintain Landsat measurements. If NASA is tasked to do other 
agency's work, it should do so on a reimbursable basis as it does 
successfully for other programs such as the Joint Polar Satellite 
System, and the Geostationary Operational Environmental Satellite 
System.
    The budget request also seeks an increase of $129 million for the 
Space Technology Mission Directorate and $439 million for the 
Commercial Crew Program. I fully support developing the capabilities 
necessary to once again launch American astronauts on American rockets 
from American soil as soon as possible. I also believe that NASA should 
be investing in the technologies necessary to enable future 
exploration. Congress will have to evaluate these proposals to ensure 
they are the most efficient uses of taxpayer resources in a challenging 
budget environment. For instance, NASA has argued that it is necessary 
to fund two contractors in the Commercial Crew program to provide a 
redundant capability and enable competition to drive down costs. That 
is why NASA selected two contractors last fall.
    Congress will have to decide whether a redundant capability is best 
provided by two contractors in the Commercial Crew program, or by 
external capabilities such as the Orion crew capsule on an existing 
launch vehicle. Existing law requires NASA to ensure that Orion can 
serve as an emergency backup to the Commercial Crew program. NASA has 
not devoted any effort to complying with this requirement. NASA could 
also resort to relying on the Soyuz as well. This is certainly not an 
ideal option, but it does provide a capability in the event that 
domestic contractors are late or experience setbacks.
    The benefits of cost competition also need to be weighed 
considering the government now has fixed-price contracts. Ultimately, 
Congress will have to decide whether the nation should develop a 
capability or should stand-up a market. One thing that would assist 
Congress in evaluating this proposal is an Independent Cost Estimate 
(ICE) for the Commercial Crew program. NASA previously contracted for 
an independent cost assessment which only evaluated contractor-provided 
data. Now that we have fixed-price contracts from the contractors, NASA 
should initiate a more thorough (ICE) to determine whether the 
contractors can be reasonably expected to execute within cost and 
schedule.
    Another NASA activity that would benefit from an independent cost 
estimate is the Asteroid Retrieval and Redirect Mission. Unfortunately, 
NASA indicated that it was unnecessary to conduct an (ICE) prior to 
selecting optional mission concepts, despite a recommendation from the 
NASA Advisory Council. The ARM mission still hasn't garnered any 
support in academic, scientific, exploration, or international 
communities. NASA's own advisory bodies have heavily criticized the 
mission. Without consensus, without a realistic cost, and without a 
clear explanation of how it fits into a broader exploration 
architecture, it is tough to see how this proposal gains traction in 
the remaining 18 months of the President's term.
    NASA is at a crossroads. Unfortunately, the last six years featured 
drastic change with the cancellation of Constellation and uncertain 
direction with the President's ever-changing Asteroid initiative. 
Congress has been consistent in its guidance to NASA that it develop a 
long-term sustainable exploration strategy that is evolvable and 
flexible based on an uncertain budget environment. Recent announcements 
from NASA indicate that the agency is heeding that direction by working 
towards an architecture that can weather the storms of change that 
accompany new Administrations. Administrator Bolden and his leadership 
team have a tough job. General Bolden, I am glad you have the reins.

    Chairman Palazzo. At this time I recognize our Ranking 
Member, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and good 
morning and welcome to Administrator Bolden at today's hearing.
    Mr. Chairman, I want to thank you for calling this hearing 
on an overview of the budget proposal for the National 
Aeronautics and Space Administration fiscal year 2016 budget.
    The President is requesting 18.5 billion dollars for NASA's 
programs and plans for fiscal year 2016. That's about a 2.8 
percent increase over the FY 2015 enacted appropriation. It's a 
significant topline increase given the current fiscal 
environment, but the question is whether it's a proposal that's 
sufficient to enable NASA to do all that we have asked and 
expect it to accomplish. I want NASA to succeed, and I want to 
provide it with the tools and resources needed to continue to 
achieve great things for this nation and our citizens, like the 
winglets we now see on commercial aircraft that improve fuel 
efficiency and which were invented through NASA's aeronautics 
research program, the scientific exploration of uncharted 
corners of our solar system, such as Pluto, where the New 
Horizons probe will provide our first close-up examination of 
this remote body when it arrives there this summer, the 
successful Orion Exploration Flight Test-1 that helps us 
prepare to once again send humans beyond low-Earth orbit, and 
being the source of inspiration that lights up children's faces 
as they hear from astronauts and researchers, watch a launch, 
and realize that they too can be our next space scientists, 
engineers, and explorers.
    Mr. Chairman, accomplishments such as these would not have 
been possible without the ingenuity, knowhow, commitment, and 
dedication demonstrated by the NASA federal workforce and its 
partners in industry and academia. So they deserve our thanks 
for all they do. They and the public also deserve to know what 
lies ahead for NASA.
    Over the past few years, we have heard from many witnesses 
that stability is a critical enabler for NASA's progress. That 
is why in my statement on the House Floor for passage of the 
now House-passed, bipartisan NASA Authorization Act of 2015, I 
said that NASA needs our constancy of purpose and direction now 
so that we might provide some stability to the agency while we 
work on multi-year reauthorization, once the current bill is 
enacted into law. So I hope to hear today about whether or not 
the Fiscal Year 2016 budget request provides NASA with the 
clear goals that maintain a constancy of purpose. And one area 
where the need for constancy of purpose has been widely 
discussed is human exploration, perhaps because of the 
commitment of resources and goals that must span multiple 
Congresses and Presidential Administrations if we are to be 
successful in that undertaking.
    To that end, I'm pleased that NASA and the community have 
embraced Mars as the long-term goal for human exploration. And 
indeed our bipartisan Authorization Act establishes such a goal 
and directs the development of a roadmap to get us there. I 
hope Congress has the foresight to commit the necessary 
resources to fund a humans-to-Mars plan, because it is a worthy 
goal that among other things will do much to advance our 
nation's technological capabilities. But as the National 
Academies stressed just a year ago, if Mars is a worthy goal, 
and they think it is and if we think it is, we need to provide 
the resources to achieve it. If Congress is unwilling to commit 
the required resources, we must not let the enthusiasm for a 
goal of sending humans to Mars divert resources from NASA's 
other important mission areas, because our House-passed 
bipartisan NASA Authorization Act reflects an enduring 
commitment to NASA's multi-mission role. This is true.
    I look forward to hearing from Administrator Bolden and to 
working with him and my colleagues on maintaining a constancy 
of purpose for NASA going forward, and I thank you and I yield 
back.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good Morning, and welcome Administrator Bolden to today's hearing. 
Mr. Chairman, thank you for calling this hearing on ``An Overview of 
the Budget Proposal for the National Aeronautics and Space 
Administration for Fiscal Year 2016.''
    The President is requesting $18.5 billion for NASA's programs and 
plans for Fiscal Year 2016, about a 2.8 percent increase over the 
Fiscal Year 2015 enacted appropriation. That is a significant topline 
increase given the current fiscal environment. But is it a proposal 
that is sufficient to enable NASA to do all that we have asked and 
expect it to accomplish?
    I want NASA to succeed, and I want to provide it with the tools and 
resources needed to continue to achieve great things for this nation 
and our citizens. Like the winglets we now see on commercial aircraft 
that improve fuel efficiency and which were invented through NASA's 
aeronautics research program; the scientific exploration of uncharted 
corners of our Solar System, such as Pluto, where the New Horizons 
probe will provide our first close-up examination of this remote body 
when it arrives there this summer; the successful Orion Exploration 
Flight Test -1,that helps us prepare to once again send humans beyond 
low-Earth orbit; and being the source of inspiration that lights up 
children's faces as they hear from astronauts and researchers, watch a 
launch, and realize that they too can be our next space scientists, 
engineers, and explorers.
    Mr. Chairman, accomplishments such as these would not have been 
possible without the ingenuity, know-how, commitment, and dedication 
demonstrated by the NASA federal workforce and its partners in industry 
and academia. So, they deserve our thanks for all that they do. They 
and the public also deserve to know what lies ahead for NASA.
    Over the past few years, we have heard from many witnesses that 
``stability'' is a critical enabler for NASA's progress. That is why in 
my statement on the House Floor for passage of the now House-passed, 
bipartisan NASA Authorization Act of 2015, I said that ``NASA needs our 
constancy of purpose and direction now'' so that we might provide some 
stability to the agency while we work on a multi-year reauthorization, 
once the current bill is enacted into law.
    So I hope to hear today about whether or not the Fiscal Year 2016 
budget request provides NASA with the clear goals that maintain a 
constancy of purpose.
    And one area where the need for constancy of purpose has been 
widely discussed is human exploration, perhaps because of the 
commitment of resources and goals that must span multiple Congresses 
and Presidential Administrations, if we are to be successful in that 
undertaking.
    To that end, I'm pleased that NASA and the community have embraced 
Mars as the long-term goal for human exploration, and indeed our 
bipartisan Authorization Act establishes such a goal and directs the 
development of a roadmap to get us there.
    I hope Congress has the foresight to commit the necessary resources 
to fund a humans-to-Mars plan, because it is a worthy goal that among 
other things will do much to advance our nation's technological 
capabilities.
    But, as the National Academies stressed a year ago, if Mars is a 
worthy goal--and they think it is--we need to provide the resources to 
achieve it. If Congress is unwilling to commit the required resources, 
we must not let the enthusiasm for a goal of sending humans to Mars 
divert resources from NASA's other important mission areas; because our 
bipartisan, House-passed NASA Authorization Act reflects an enduring 
commitment to NASA's multi-mission role.
    I look forward to hearing from Administrator Bolden and to working 
with him and my colleagues on maintaining a "constancy of purpose" for 
NASA going forward.
    Thank you and I yield back.

    Chairman Palazzo. Thank you, Ms. Edwards. I now recognize 
the Chairman of the full Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman, and I, like you, 
appreciate Administrator Bolden's testifying today.
    While there are some areas of agreement between the 
Committee and the Administration in this budget, the 
President's request regrettably changes agreed-upon national 
priorities. The President's request puts NASA in a tough 
position because it ignores his own sequestration levels and 
fails to identify offsets for increases of $500 million. It is 
hard for Congress to consider this a serious proposal when it 
does not comply with the law and is not grounded in reality.
    I also disagree with the Administration's continued attempt 
to redistribute funding within NASA. For example, Europa is one 
of the best destinations we have in our own solar system for 
finding life beyond our planet. Yet this year's request of $30 
million for the Europa mission is disappointing considering the 
mission's potential. In contrast, Congress has funded a Europa 
mission at $75 million, $80 million, and $100 million over the 
last three years.
    Missions like this, as well as the search for exoplanets 
and signs of life in other areas of our universe, captivate the 
American people. I appreciate the progress, on the other hand, 
that has been made with other priorities such as the James Webb 
Space Telescope, the Transitioning Exoplanet Survey Satellite, 
and the Wide Field Infrared Space Telescope. Overall, though, 
there is a lack of balance in the overall science account 
request.
    Congressional guidance and the decadal surveys advocate for 
a balanced portfolio of science activities. Unfortunately, the 
President's request does not adhere to that recommendation by 
the space experts. One of the most glaring examples is the 
disproportionate increase in the Earth Science Division that it 
receives at the expense of other science divisions and human 
and robotic space exploration. There are 13 other agencies 
involved in climate change research, but only one that is 
responsible for space exploration. In the last eight years, the 
Earth Science Division funding has increased by more than 63 
percent. This year, the Administration requested another 
increase of $175 million over last year's levels for a total 
increase of nearly $2 billion. The Administration doesn't even 
come close to funding other science divisions at this level.
    The Planetary Science budget request is 43 percent lower 
than the Earth Science budget request. Also, the Earth Science 
request is almost as much as the Astrophysics division, the 
James Webb Space Telescope, and the Heliophysics Division 
combined. This is anything but a balanced portfolio.
    These increases come at the expense of NASA's high-priority 
exploration programs, which the White House has once again 
attempted to raid to fund the Administration's environmental 
agenda. The budget underfunds the Space Launch System and Orion 
programs and it cuts human spaceflight programs by almost $400 
million. The Obama Administration seems to have forgotten 
NASA's priorities--and the main one is space exploration.
    This budget also continues to request funding for the 
uninspiring Asteroid Redirect Mission (ARM), which was recently 
rebranded the Asteroid Redirect Mission. The Administration 
continues to push this mission on NASA without any connection 
to a larger exploration roadmap and absent support from the 
scientific community or even NASA's own advisory committees. 
This is an uninspiring mission without a realistic budget or 
destination. It has no certain launch date or ties to existing 
exploration goals. It is a mission that is without the 
consensus necessary to make it a reality in the 18 months 
remaining in the Obama Administration.
    The Administration continues to starve NASA's exploration 
programs to fund a partisan environmental agenda. NASA simply 
deserves better.
    Thank you, Mr. Chairman, and I'll yield back.
    [The prepared statement of Chairman Smith follows:]

                  Prepared Statement of Full Committee
                        Chairman Lamar S. Smith

    Thank you, Mr. Chairman. And I appreciate Administrator Bolden's 
testifying today. While there are some areas of agreement between the 
Committee and the Administration in this budget, the president's 
request regrettably changes agreed-upon national priorities.
    The President's request puts NASA in a tough position because it 
ignores his own sequestration levels and fails to identify offsets for 
increases of $500 million. It is hard for Congress to consider this a 
serious proposal when it does not comply with the law and is not 
grounded in reality.
    I also disagree with the Administration's continued attempt to 
redistribute funding within NASA. For example, Europa is one of the 
best destinations we have in our own solar system for finding life 
beyond our planet. Yet this year's request of $30 million for the 
Europa mission is disappointing considering the mission's potential.
    In contrast, Congress has funded a Europa mission at $75 million, 
$80 million, and $100 million over the last three years. Missions like 
this, as well as the search for exoplanets and signs of life in other 
areas of our universe, captivate the American people.
    I appreciate the progress, on the other hand, that has been made 
with other priorities such as the James Webb Space Telescope, the 
Transitioning Exoplanet Survey Satellite, and the Wide Field Infrared 
Space Telescope.
    Overall, though, there is a lack of balance in the overall science 
account request. Congressional guidance and the decadal surveys 
advocate for a balanced portfolio of science activities. Unfortunately, 
the President's request does not adhere to that recommendation by the 
space experts.
    One of the most glaring examples is the disproportionate increase 
in the Earth Science Division that it receives at the expense of other 
science divisions and human and robotic space exploration. There are 13 
other agencies involved in climate change research, but only one that 
is responsible for space exploration. In the last eight years, the 
Earth Science Division funding has increased by more than 63 percent.
    This year, the Administration requested another increase of $175 
million over last year's levels for a total increase of nearly $2 
billion. The administration doesn't even come close to funding other 
science divisions at this level.
    The planetary science budget request is 43 percent lower than the 
earth science budget request. Also, the Earth Science request is almost 
as much as the Astrophysics division, the James Webb Space Telescope, 
and the Heliophysics Division combined. This is anything but a balanced 
portfolio. These increases come at the expense of NASA's high-priority 
exploration systems, which the White House has once again attempted to 
raid to fund the Administration's environmental agenda.
    The budget underfunds the Space Launch System and Orion programs. 
And it cuts human spaceflight programs by almost $400 million. The 
Obama Administration seems to have forgotten NASA's priorities - and 
the main one is space exploration.
    This budget also continues to request funding for the uninspiring 
Asteroid Retrieval Mission (ARM), which was recently rebranded the 
"Asteroid Retrieval and Redirect Mission." The Administration continues 
to push this mission on NASA without any connection to a larger 
exploration roadmap and absent support from the scientific community or 
even NASA's own advisory committees.
    This is an uninspiring mission without a realistic budget or 
destination. It has no certain launch date or ties to existing 
exploration goals. It is a mission that is without the consensus 
necessary to make it a reality in the 18 months remaining in the Obama 
administration.
    The Administration continues to starve NASA's exploration programs 
to fund a partisan environmental agenda. NASA simply deserves better.
    Thank you, Mr. Chairman, and I yield back.

    Chairman Palazzo. Thank you, Chairman Smith.
    Let me introduce our--today's witness. Our first and only 
witness today is the Hon. Charles F. Bolden, Jr. General Bolden 
has been the Administrator of NASA since 2009. Prior to 
becoming Administrator, General Bolden served for 34 years in 
the Marine Corps including 14 years as a member of NASA's 
Astronaut Office. General Bolden has traveled to orbit four 
times aboard the space shuttle including the flight that 
deployed the Hubble Space Telescope. General Bolden has several 
honorary doctorates from a variety of prestigious universities 
and received his bachelor's in electrical science from the 
United States Naval Academy.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made part of the record.
    I now recognize General Bolden for five minutes to present 
his testimony.

       TESTIMONY OF THE HONORABLE CHARLES F. BOLDEN, JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS

                AND SPACE ADMINISTRATION (NASA)

    General Bolden. Thank you very much, Mr. Chairman, and Mr. 
Chairman and Members of the Subcommittee, five years ago 
yesterday, President Obama came to the Kennedy Space Center and 
laid out what I consider to be a bold, transformative agenda 
for NASA. He challenged us to embark on a journey to Mars. He 
challenged us to extend the life of the International Space 
Station and increase Earth-based observations. He called for 
investments in new, advanced technologies that will not only 
take Americans farther into space than ever before but also 
will provide spinoff benefits and create high-paying jobs here 
at home. Five years later, we've made landmark progress toward 
these goals. SpaceX's successful launch just this week is a 
shining example.
    The budget proposed by the President furthers the goals we 
share of extending our reach into space while strengthening 
American leadership here at home. It is an $18.5 billion 
investment that represents a leap into a future greater of 
discovery, job creation and economic growth as well as a 
healthier planet.
    Thanks to the hard work of our NASA team and partners all 
across America, we've made a lot of progress on our journey to 
Mars. In fact, we have now progressed farther on this path to 
sending humans to Mars than at any point in NASA's history, and 
this budget will keep us marching forward.
    The support of this Subcommittee and the Congress are 
essential to this journey. The International Space Station is 
the crucial first step in this work. It is our springboard to 
the rest of the solar system, and we are committed to extending 
space station operations to at least 2024. Thanks to grit, 
determination, and American ingenuity, we've returned ISS cargo 
resupply missions to the United States in-sourcing these jobs 
and creating a new private market in low-Earth orbit.
    Under a plan outlined by the Administration earlier in its 
term, we have also awarded two American companies, SpaceX and 
Boeing, fixed-price contracts to safely and cost-effectively 
transport our astronauts to the space station from U.S. soil. 
This will end our sole reliance on Russia. It is critical that 
we receive the funding requested for 2016 so that we can meet 
our 2017 target date and stop writing checks to the Russian 
space agency.
    Our newest, most powerful rocket ever developed, the Space 
Launch System, or SLS, has moved from formulation to 
development, something no other exploration-class vehicle has 
achieved since the agency built the space shuttle. The Orion 
spacecraft performed flawlessly on its first trip to space this 
past December. The SLS and exploration ground systems are on 
track for launch capability readiness by November of 2018, and 
the teams are hard at work on completing technical and design 
reviews for Orion.
    Our budget also funds a robust science program with dozens 
of operating missions studying our solar system and the 
universe. New Horizons is preparing for its arrival at Pluto in 
July and Dawn has entered into orbit around the dwarf planet 
Ceres.
    Before we send humans to Mars, robots are paving the way. 
We are at work on a Mars rover for 2020 and have begun planning 
a mission to explore Jupiter's fascinating moon Europa.
    NASA is a leader in Earth science and our constantly 
expanding view of our planet from space is helping us better 
understand and prepare for these changes. NASA has 21 research 
missions studying Earth, and in the last year alone, we 
launched an unprecedented five more. We also are at work on 
Humanity's first voyage to our home star, a mission that will 
repeatedly pass through the sun's outer atmosphere.
    NASA's Hubble, Chandra and Kepler Space Telescopes explore 
the universe beyond our solar system. Hubble's successor, the 
James Webb Space Telescope, is taking shape right now out in 
Maryland, and a new mission is in development to extend 
Kepler's pioneering work in finding planets.
    Technology drives science exploration and our journey to 
Mars. With the President's request, NASA will continue to 
maintain a steady pipeline of technology to ensure that we 
continue to lead the world in space exploration and scientific 
discovery.
    NASA is also with you when you fly, and we are committed to 
transforming aviation by dramatically reducing its 
environmental impact, maintaining safety in more crowded skies, 
and paving the way toward revolutionary aircraft shapes and 
propulsion systems.
    Mr. Chairman, America's space program is not just alive; it 
is thriving. The strong support we receive from this 
Subcommittee is making that happen, and I particularly 
appreciate the generous FY 2015 appropriation. As the President 
said at the Kennedy Space Center, and I quote, ``For pennies on 
the dollar, the space program has improved our lives, advanced 
our society, strengthened our economy, and inspired generations 
of Americans.'' NASA looks forward to working with the Congress 
to continue making this vision a reality.
    I would be pleased to respond to your questions.
    [The prepared statement of General Bolden follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Palazzo. Thank you, Administrator Bolden, for your 
testimony. The Chair recognizes himself for five minutes for 
questions.
    The NASA Authorization Act of 2010 directed NASA to develop 
the Orion crew vehicle and the Space Launch System, or the SLS 
rocket. The development of these systems is managed by NASA's 
Exploration Systems Development program. Congress has 
consistently provided more funding for exploration systems 
development than NASA has requested. This was true even in the 
FY 2013 budget despite reductions due to sequestration.
    The first test flight of Orion and SLS without a crew, 
known as EM-1, was formerly expected in 2017. When NASA 
completed key decision point C on the SLS last year, why didn't 
NASA use the review to develop a budget to maintain the 2017 
launch date instead of using the Joint Confidence Level 
development process to delay the launch and cut the budget?
    General Bolden. Mr. Chairman, you mentioned the 2010 
Authorization Act, and I was going to go back to that anyway 
because that is what established the bipartisan priorities for 
this agency, and I will just review them. They're the James 
Webb Space Telescope, exploration through the Space Launch 
System and Orion, and ISS at that time extended to 2020. We 
have subsequently gotten it extended to 2024, and we recently 
got the agreement from our Russian partners that they too 
believe that we should extend ISS to 2024.
    We have done everything that we promised in the 
appropriations--in the Authorization Act, and we continue to be 
focused on those as our key priorities. We have actually 
accomplished, as you have already mentioned, many of the things 
that many people would not have believed we would have done by 
now. If you go to Michoud, we are actually welding barrel 
sections for SLS. If you go down to the Cape, we're going 
through the study of Orion from its first flight trying to get 
it ready. We are working on the next milestone for Orion where 
we will go through a similar process that we did for SLS and 
the ground systems so that we can establish an availability 
date for the first integrated flight of Orion and SLS.
    We e have taken the funds that the American taxpayer has 
allowed us to have, and I think we have delivered on the 
promises that we've made to this Congress and to the American 
public.
    Chairman Palazzo. I don't think you actually answered the 
question. So after the decision point C was made, why didn't 
NASA go back and use the Joint Confidence Level to try to 
maintain the 2017 target?
    General Bolden. The team did what I asked them to do. I 
originally said I am willing to accept a 30 percent confidence 
level where NASA accepts as a general rule a 70 percent 
confidence level, and so that everybody understands what that 
is. That says that we are 70 percent confident that we can do 
this project within the budget that we proposed and by the date 
that we proposed. Once we went through KDP-C, I could have said 
okay, let's go back to a 30 percent confidence level. That 
would have almost guaranteed that we wouldn't make 2017 or any 
other date, and I have promised this Committee and others that 
we're past telling you that we're going to do something and 
then not performing.
    I think if you look at our performance over the last few 
years, whether it's in science, in human exploration or 
anything else, for the most part we have delivered on time, and 
that's because we have chosen a very structured process like 
the Joint Confidence Level process to tell us when we think 
things are going to be available and how much they're going to 
cost.
    Chairman Palazzo. Okay. I understand that, and I just want 
to kind of remind people that several times you've testified in 
front of this Committee that we were absolutely on schedule for 
2017 launch and that even the lower level funding requests that 
came from NASA, Congress always exceeded what the President's 
ask was because of the importance of SLS and Orion.
    The NASA Advisory Council (NAC) recently voted unanimously 
to find that NASA's proposed Asteroid Redirect Mission, or ARM, 
ought to be repurposed toward a mission to Mars itself. They 
claim that ARM's asteroid retrieval aspect didn't efficiently 
contribute to the journey to Mars and that the scientific 
material provided by ARM would be a duplication of work 
performed by OSIRIS-REx. NAC was further skeptical of ARM 
because NASA already has a robotic asteroid sample return 
mission in OSIRIS-REx, which would cost significantly less than 
the ARM. Have you considered the NAC's alternate proposal of 
simplifying ARM into a Mars mission that functions purely as a 
solar electric propulsion test bed?
    General Bolden. Mr. Chairman, ARM is a precursor for Mars. 
ARM is a critical component of getting humans to Mars. Among 
the things that the ARM mission does is it forces us so it is 
providing us the opportunity to upgrade our solar propulsion to 
high-energy solar electric propulsion that will enable us to 
move large masses from Earth to Mars or from lunar orbit to 
Mars. That is essential. The NAC has said that no matter what 
we do with ARM, we must not lose that demonstration.
    The second thing that ARM allows us to do, provided we're 
successful in getting a portion of an asteroid or an asteroid 
into orbit around the moon is, it allows us to put humans in 
connection with that particular piece of an asteroid to learn 
how to operate in low-gravity or no-gravity environments, the 
way we're going to have to do it when we go to Mars. So ARM 
accomplishes several, two at least, of the primary functions or 
technology developments that even the NAC says we have to do.
    The other thing, you know, I appreciate the fact that 
people appreciate that we're going to bring back some samples 
with OSIRIS-REx. What people don't appreciate is that we're 
going to have astronauts interacting with an asteroid in orbit 
around the moon, and that is not being done by any other 
mission on the books. It has not been done before.
    And then finally, there is a small thing that is on my mind 
all the time, because Chairman Smith hosted Dr. Holdren and 
General Shelton and me to what I tell him all the time was the 
most substantive hearing I have participated in, and that was 
one on near-Earth objects, and at that time Mr. Posey, Mr. 
Brooks and others bombarded me with demands that I tell them 
what we were going to do if an asteroid was inbound, and I 
finally gave up and said I would pray. That was not a good 
answer. That was not a technical answer. It made big time with 
my priest but it didn't help anywhere else.
    Chairman Palazzo. All right. Well----
    General Bolden. Today if asked that question, I would tell 
them that we now have a mission underway which is called the 
Asteroid Redirect Mission that is going to inform our ability 
to actually deflect an asteroid or do something to protect this 
planet. So, two years ago in the hearing, my answer was 
repeatedly, we don't have a thing we can do. That was the 
reason I resorted to my religion. Today I can tell you have a 
mission that is on the books that is being developed that will 
answer the question from Mr. Posey and Mr. Brooks and anyone 
else who is concerned about the threat from near-Earth 
asteroids.
    Chairman Palazzo. We can definitely probably hold 
additional hearings. I think we've held two----
    General Bolden. Yes.
    Chairman Palazzo. --already on near-Earth objects and the 
threats that they may pose to Earth and the human race. But in 
essence, you disagree with your advisory committee?
    General Bolden. Mr. Chairman, I don't disagree with the 
advisory committee. That's not my place. They are an advisory 
committee. That means in fact--you know, I find that--two of 
the people that I respect the most who are astronauts, are Buzz 
Aldrin and Gene Cernan, because I have to choose between their 
beliefs. Gene Cernan says I should be going to the moon. Buzz 
Aldrin says I should be going to Mars. I don't disagree with 
either of them. I respect their opinion. But only one of them, 
you know, is right as a number one priority. I happen to choose 
Buzz Aldrin's number one priority as Mars because moon is on 
the way. We will put people back on the moon but we can do that 
on the way to Mars. You can't get to Mars if you stop at the 
moon.
    Chairman Palazzo. All right. Well, I appreciate your 
responding to my questions, and of course, you know, without 
consensus in the scientific, the exploration and international 
communities, not to mention the people here on Capitol Hill, I 
think you will be challenged to make ARM last longer.
    General Bolden. Mr. Chairman, may I----
    Chairman Palazzo. I realy am three and a half minutes over, 
and I know she's going to take at least three and a half 
minutes over too. Hopefully she won't. This is a well-attended 
hearing. But at this time I recognize Ranking Member Edwards 
for her questions.
    Ms. Edwards. Thank you, Mr. Chairman, and you've come to 
know me so well.
    Administrator, I want to go back to the budget proposal 
because I indicated this in my opening statement about this 
idea of constancy of purpose for NASA and what's required, and 
so I'm really confused. Part of me thinks it's kind of a game 
where the proposed reductions to SLS and Orion from the FY 2015 
enacted levels and then Congress come back and the 
Administration proposes one thing, Congress comes and puts it 
in. Here we go again. The proposal is one thing, and I don't 
know, is there an expectation that Congress is going to say 
well, SLS and Orion of course, those are signature important 
programs and we'll put the money in. If this is an important 
priority for the agency and for the nation, why don't you just 
put it in the budget and not have us sit there and ask 
questions about why it's not in the budget? And knowing that 
the proposal that you have in front of us probably doesn't 
support the integration that's necessary. It may not support 
the pathway along to EM-2. What's the real number for SLS, 
Orion? And maybe we should pencil that in.
    General Bolden. Congresswoman, I honestly believe that the 
number that we put in the President's budget will get us to the 
target dates and the target achievements that we say. As I have 
responded to this and many other committees, when you give me 
more money, I appreciate it and I use it, and what we do is, we 
buy down risk. We were able to get to a 70 percent confidence 
level on SLS and Orion, or SLS and the ground systems, because 
we did have more money. I was willing to accept a lower 
probability but I don't think we should operate that way. So if 
you gave me more money today and told me to spend it on SLS, 
that's not going to change the date of availability for SLS for 
EM-1. I would much rather take the money as we have it planned 
out to make a sustainable program.
    We are not talking about one flight. In fact, when we go 
through the milestone review for Orion, we're going to give you 
a budget plan and a date that we think we can make for the 
second flight of Orion and SLS because that's the critical 
flight for us, not the first flight. The second flight is the 
first human flight, and so we made the decision that for Orion, 
then KDP-C and other milestones would look at the first human 
flight. If you tell me to put the money into SLS for EM-1, I 
can do that, and then we have a one-flight program that I've 
got to later figure out how to sustain.
    Ms. Edwards. Okay. So, I appreciate your saying that, but 
let's just remember this day when that is said because if we 
come down the line, we're going to take you at your word----
    General Bolden. Yes.
    Ms. Edwards. --that you don't need that, and so then I want 
to ask you about the impact of the cuts that are proposed to 
aeronautics on our ability to maintain leadership in aviation 
and aeronautics with an increasingly competitive global 
environment. We've had that conversation before on this 
Committee where it feels like aeronautics kind of gets short 
shrift. So can you explain those cuts?
    General Bolden. The cuts came at my direction because 
that's--when I looked at the top line that I was willing to 
submit, which was over what we had been asked to submit, I had 
to decide where we could make the most, where we could pick up 
the most with money that we had, and aeronautics was once again 
an area that I had to take some funds from.
    So it was simply prioritizing funds that we had and trying 
to see what we could do the most with. Dr. Jaiwon Shin and his 
team did a new strategic plan, they have six strategic thrusts, 
and we think with the funds that we put in the budget, we'll be 
able to continue to make progress in those areas.
    Ms. Edwards. So let me just ask you then about Europa and 
the Europa mission really quickly because there are also 
proposed reductions in Planetary Science in the middle of the 
development of a very ambitious Mars 2020 mission. So can you 
explain that?
    General Bolden. Yes, ma'am. You know, I get this from the 
planetary scientists all the time. In July, we will achieve 
something that has never before been done by anyone, any 
country, any anything. We will have satellites that will be 
studying, orbiting several planets in the solar system and the 
dwarf planet Pluto, and we will have a spacecraft that is in 
interstellar space. We managed to do that with limited funds 
because we appreciate everything that the Congress has given us 
but it is limited, and so we can either take stuff off the 
plate or we can figure out ways to do the best we can to 
achieve the missions that you have given us, and sometimes we 
have to come back and tell you it can't be done in the time 
frame that you want. People want Europa in 2022. It can't be 
done in that time frame. We will continue to say that. We know 
about how long it will take us to put a mission on Europa. So 
it's simply a matter of prioritization again.
    All of you have mentioned in your opening statements that 
we're over the Budget Control Act number. Yes, we are, maybe.
    Ms. Edwards. Oh, you didn't hear that complaint from me.
    Because the time is limited, even though I'm going over, 
out of respect for the Chairman, I didn't want to go here but 
now that you've taken me to Asteroid Redirect, in our 
authorization, and we know that it is not law, but you've 
promised a roadmap on sort of laying out what the choices are 
and how we're going to get to Mars, and what happens is that 
you come in front of the, you know, Committee, and with all due 
respect, you haven't provided the roadmap but you've said this 
is the direction that we're going using the Asteroid Redirect, 
and it feels like we're missing a little bit of communication 
here.
    It would be important for this Committee to have a roadmap, 
to have something that says here are the choices and this is 
why we've decided to go in this direction, and instead what we 
get is a budget line for Asteroid Redirect that doesn't say 
here are the choices but says this is the choice we've made. So 
which is it? Have you all just ditched any other possibilities 
and everything is focused on the Asteroid Redirect as the way 
to go to Mars? Because if that is true, then what's the point 
of providing a roadmap?
    General Bolden. Congresswoman, the place we're going is 
Mars. Our ultimate focus is the journey to Mars, and everything 
comes back to that. When you talk about getting to Mars, we 
need high-energy solar electric propulsion. We need to be able 
to operate in and around low-gravity, no-gravity bodies. The 
Asteroid Redirect Mission is going to provide that. We need a 
sustained low-Earth orbit infrastructure from which we can 
operate. The International Space Station is vital to that. 
We've gotten the International Space Station to agree that we 
will extend it to 2024. That is essential. We have to supply 
the International Space Station.
    That takes us to Commercial Crew and Cargo. I want to get 
away from dependence on the Russians. We now have American 
commercial cargo capability demonstrated. The importance of two 
providers was ultimately eminently demonstrated when we lost 
Antares and Cygnus last October because when we launched SpaceX 
6, it was loaded. It was loaded with everything that would've 
been on Cygnus. So without having two providers, redundancy and 
American providers, we would not have been able to do that.
    We are on the road to having commercial crew availability 
in 2017. So that's going to take us to Mars. If I don't have 
commercial crew and cargo, the International Space Station, I 
can't get to Mars.
    Ms. Edwards. My time is like totally gone, but I'm just 
going to say to you that I think that this Committee, many of 
us want to figure out a way that we can best support the 
ultimate goal of Mars, but we have to have some level of 
communication with the Committee laying out what the 
alternatives are, what the choices are, and not just have you 
come to the Committee and say this is what we're doing. Our job 
is to take in the information and say this is how we as a 
Congress, as an American people, feel that we need to go in 
this direction, and that hasn't happened yet. It would be a 
really good idea offline, online, whatever it is, bring it in 
to us, put it on paper, lay it out for us so that we have the 
ability in subsequent authorizations to help figure that out 
with you and not just be told a direction that we're going 
without any level of communication.
    Thank you very much.
    General Bolden. Yes, ma'am.
    Chairman Palazzo. Thank you, Ms. Edwards. I now recognize 
Mr. Brooks for five minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    General Bolden, the acronym NASA stands for the ``National 
Aeronautics and Space Administration.'' I underscore the words 
``aeronautics and space,'' yet each year almost $2 billion of 
NASA funding is diverted from aeronautics and space to Earth 
sciences, i.e. global warming and climate change and similar 
initiatives. To the extent America wishes to spend taxpayer 
money on global warming and climate change, I'd submit these 
programs should be paid for out of the Environmental Protection 
Agency's budget, not America's aeronautics and space budgets.
    General Bolden, given a choice between adequately funding 
NASA's aeronautics and space efforts such as the Space Launch 
System, the various telescopes, planetary sciences and things 
of that nature so that America's space program is no longer 
reduced to hitching a ride from Russia to get to the Space 
Station and diverting NASA funding to the study of the Earth's 
environment, a subject I submit is better suited to the 
Environmental Protection Agency, what is your preference and 
why?
    General Bolden. Congressman Brooks, NASA since its 
inception has had responsibility for exploring the universe and 
helping us understand it better, and also taking care of this 
planet, which I think it happens to be my favorite planet. If I 
followed the logic that you just presented, since science is 
missing from the acronym--and people have suggested that NASA 
drop science from its programs because it's not in the acronym. 
However, that would be absurd to do. NASA is eminently 
responsible for science and we provide four areas of science--
Earth science, astrophysics, planetary science and 
heliophysics--and that is our portfolio and we cover that 
adequately with the funds that we are given. We are able to do 
things. We provide instruments and satellites that are used by 
other operational agencies. We don't do weather forecasting. We 
don't do operational science.
    Mr. Brooks. I understand that. If I could please interject 
for a moment, my question is one of choice. Do you want 
aeronautics and space money, NASA money, going to aeronautics 
and space or are you comfortable with the diversion of about $2 
billion a year to global warming, climate change initiatives, 
which in my judgment should be funded by the Environmental 
Protection Agency, thereby freeing up that $2 billion for 
aeronautics and space.
    General Bolden. Congressman, my choice is to distribute the 
money in the best way that we feel possible to cover our 
portfolio because we do feel that science, aeronautics, human 
exploration and technology development are critical missions or 
critical functions that NASA has to do. We don't divert money 
from science for human exploration. We don't divert money from 
human exploration for science. We present what we think is a 
logical budget that will enable us to achieve all of our 
missions any time that we lay out in those budgets, and I think 
we're doing that very well. I think----
    Mr. Brooks. Well, General Bolden, if I might continue, in 
my opinion, based upon what I have seen since the cancellation 
of the shuttle program, since America has been reduced to 
hitching a ride from the Russians for our astronauts, America 
is losing ground and could arguably no longer be the preeminent 
space program, which was a position we've held since the 1960s.
    Given this choice, if Congress were to shift NASA Earth 
sciences funding, roughly $2 billion a year, to restoring 
America's preeminence in space and requiring that global 
warming and climate change study be paid out of the 
Environmental Protection Agency's existing budget so that you 
still have that kind of Earth science being funded but out of 
the Environmental Protection Agency, which seems to be a more 
logical agency since we're talking about the environment, would 
you support that shift of $2 billion a year to NASA's 
aeronautics and space programs with the understanding that the 
EPA would be doing the environmental work on global warming and 
climate change?
    General Bolden. Mr. Chairman, there is only one agency that 
sends people to space, as you all have said. That's NASA. Right 
now there is a preeminent agency that provides the 
instrumentation that gathers the data to do the work of EPA and 
NOAA and others that you say. If we stop doing that, there is 
no other agency that does it. The reason that our earth 
science----
    Mr. Brooks. Now wait a second----
    General Bolden. --had an increase this year was because we 
build satellites for NOAA.
    Mr. Brooks. There's nothing that would stop the EPA out of 
their budget from hiring NASA to put those satellites up there, 
is there?
    General Bolden. That's what we do right now, so why do it 
and pretend we are not----
    Mr. Brooks. But right now it's cutting into the space 
program, I would submit, and as a consequence, I think you've 
got a very good argument out there that America is losing 
ground and the highest ground, and that's space, and we're 
doing it because aeronautics and space has not been adequately 
funded over the years.
    General Bolden. Congressman----
    Mr. Brooks. Now, I'm trying to figure out a way to improve 
funding for aeronautics and space, and if I understand 
correctly, here you are, the NASA Administrator, and you're 
saying no, we don't want that $2 billion for aeronautics and 
space and we don't want the Environmental Protection Agency to 
take over an environmental issue, which would be global warming 
and climate change initiatives. Am I erring in my 
interpretation of your remarks?
    General Bolden. Congressman Brooks, if you're saying that I 
disagree that we should take the money that NASA has in Earth 
science and shift it to aeronautics and space, you are 
absolutely right. I disagree. I think that the balance of funds 
that NASA has today in our science, human exploration, 
aeronautics and space technology portfolios is about right, I 
am really sorry that you don't believe that we are the 
preeminent agency in the world for exploration in space.
    I just came back from the Space Symposium, and there is no 
one out there who agrees with anyone who has that low opinion 
of NASA and the United States. We are the preeminent leader in 
the world, always have been, always will be.
    Mr. Brooks. Well, let me break it down. When it comes to 
human spaceflight, we are no longer the preeminent country in 
space. When it comes to non-human space endeavors, I think you 
can make an argument that America still has preeminence. But 
when you put the two together and when Russia has reduced the 
United States of America to saying if we want to go to their 
space station, we can do it by a trampoline, that's not the 
kind of preeminence at least I'm accustomed to having seen the 
Saturn V rocket built, researched and developed in the Fifth 
Congressional District of Alabama.
    Chairman Palazzo. The gentleman's time has expired.
    Mr. Brooks. Thank you, Mr. Chairman.
    Chairman Palazzo. At this time I recognize Mr. Beyer for 
five minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    General and Administrator, NASA's Wallops Flight Facility 
and Mid-Atlantic Regional Spaceport play a critical role in our 
nation's launch infrastructure providing half of the cargo 
resupply launches to the ISS as well as other important NASA 
and DOD missions. It's one of only four operational sites in 
the United States capable of orbital launch, and only one of 
two on the East Coast capable of supporting NASA's human 
spaceflight programs, and it's my understanding that last year 
Wallops nearly tied Vandenberg AFB for the number of launches. 
And last fall, the Congress with bipartisan and bicameral the 
support, appropriated $20 million for NASA's Wallops for the 
long overdue range upgrades as well as support recovery from 
the Orb-3 accident last October. I was pleased to learn that 
the first $5 million was actually--of the appropriate funding 
was released last week but I think I and all the Virginia 
delegation are concerned about five months after the bill is 
signed into law, the other $15 million still hasn't flowed into 
Wallops. Can you tell me when that funding is going to come to 
Wallops and what the delay might be?
    General Bolden. Congressman, we have continued to build 
Wallops up to what we consider to be a 21st century launch 
complex. It is our intent that Wallops will be returned to the 
capability of launching medium- and small-class orbital 
vehicles, and we will see that when Orbital Sciences is ready 
to launch again, the facility will be fully up and running. But 
if you look at the funds that we have expended through the 
years at Wallops, we don't count a particular pot, you know, 
for work on the pad or whatever. We're trying to restore it to 
a 21st century launch complex.
    The $5 million that we contributed to the repairs on the 
pad were because we took the leadership in trying to get the 
three teams together, meaning Orbital, Mid-Atlantic Regional 
Spaceport (MARS) and the State of Virginia to move, to get some 
movement on restoring the pad. So we felt it was essential to 
do that.
    I would have to remind people that what is not counted 
because it wasn't in our budget but we were able to find ways 
to do it was, how did we get Wallops to the point where it 
could launch in the first place. We brought people up from 
Stennis, we brought people up from Kennedy, we brought people 
up from Langley to enable MARS and the State of Virginia to 
have an operating launch pad. So we have always supported 
Wallops with funds over and above what shows up in the budget 
for a particular budget line, so----
    Mr. Beyer. Thank you, General.
    General Bolden. --I pledge we'll continue that.
    Mr. Beyer. We look forward to the other $15 million. That 
would be great.
    General Bolden. Yes, sir.
    Mr. Beyer. I was very impressed with this notion of 
constancy of purpose and our Ranking Member Edwards' concerns. 
Much is made of it, and reading through all this, you see 
there's so much on your plate. Just look at the budget--
exploration, space operations, science, aeronautics, education, 
et cetera, in specific programs, SLS, Orion, commercial crew, 
JWST, heliophysics, Earth science, et cetera, Mars, exoplanets, 
ISS, Landsat. Is there any way you can tell me what NASA's 
constancy of purpose actually is?
    General Bolden. Oh, Mars is the planet that is most like 
Earth. It is the one that we believe may sustain life, probably 
did sustain some type of life and will sustain life when humans 
get there in the 2030s. It is critical for us to understand 
Mars like every other planet in our solar system so that we 
better understand planet Earth. We've been exploring Mars for 
about 40 years. Every precursor has been with one purpose in 
mind, and that's being able to put humans on that planet one of 
these days. That is the reason we have Curiosity there. That's 
the reason we're going to put Mars 2020 there, the reason we're 
going to launch InSight next year.
    Mr. Beyer. So is it safe to say if I'm explaining NASA's 
constancy of purpose to a high school physics student, I'd say 
you can look at all this through the lens of Mars?
    General Bolden. That is one example, and it depends on--if 
you're talking to kids in high school, some of them are going 
to have no interest in planetary science, so some of them may 
be interested. They may be techies, and then I need to be able 
to show them the constancy of purpose in NASA's Space 
Technology Mission Directorate that's enabling like them the 
young people back here from Carnegie Mellon in a university 
that's noted for its computer science.
    Mr. Beyer. So----
    General Bolden. They've got to believe they can come to 
NASA and contribute also.
    Mr. Beyer. I was clear and now I'm confused again. So it 
sounds like we have just a huge buffet at NASA rather than a 
single focus or a singled constituted purpose. Is there a way 
to define it clearly? We opened with all the concerns about we 
cut money from this and we added money to that, and where was 
our constancy of purpose?
    General Bolden. When I talk about constancy of purpose, I'm 
really talking about exploration, and that is the primary focus 
of this agency in trying to keep up with the charter that 
established NASA in 1958 to understand our universe. We believe 
that if we can put humans on Mars, our journey--if we can shore 
up our journey to Mars and say we're going there, we may wander 
along the way as people always do when they're on a journey but 
that's the ultimate destination, here's the plan that we have 
in place that Congresswoman Edwards mentioned. We have three 
things we've got to do. We're Earth-reliant right now. We've 
got to get away from being Earth-reliant and that means we've 
got to spend some time in the proving zone. We've got to go 
back to the lunar environment so we'll be in cislunar space, 
and ultimately we want to be Mars-ready. We want to be Earth-
independent.
    So it takes all of these little pieces that I mentioned. 
Congressman Perlmutter just came in. He is one of my biggest 
cheerleaders for MAVEN. You know, we've got to understand 
Mars's environment and what happened to it in order to 
understand Earth's environment right now and what might happen 
to it if the magneto gets turned off, and----
    Chairman Palazzo. The gentleman's time has expired. At this 
time I'd like to recognize Chairman Smith for five minutes.
    Chairman Smith. Thank you, Mr. Chairman. Mr. Chairman, let 
me say at the outset that I think we've heard excellent 
questions today from both sides of the podium. I still think 
we're searching for more direct answers to a lot of those 
questions, and to that end, Director Bolden, let me go to the 
Asteroid Redirect Mission for a second.
    It is amazing to me that the Administration actually thinks 
that changing this mission and securing an asteroid and taking 
it into orbit and around the moon and now change it to getting 
a boulder from an asteroid and putting it into orbit is going 
to somehow attract the American people's attention and inspire 
them.
    But the main point I want to make here is that the NASA 
Advisory Council actually made a recommendation to you all, and 
it found ``Instead of relocating a boulder from an asteroid, we 
suggest that a more important and exciting first use of this 
new solar electric propulsion stage would be a round-trip 
mission to Mars, flying it to Mars orbit and then back to the 
Earth-Moon system and into a distant retrograde lunar orbit.'' 
Why isn't the Administration following its own experts' advice?
    General Bolden. Congressman Smith, we believe, I believe 
that we are going to stand a better chance----
    Chairman Smith. So you disagree with your experts? And 
you're entitled to do that.
    General Bolden. I agree with some of my experts, who happen 
to think the Asteroid Redirect Mission is awesome.
    Chairman Smith. In the last two years, all the experts have 
recommended the NCR mission, and you all keep----
    General Bolden. Mr. Chairman----
    Chairman Smith. --forging ahead.
    General Bolden. With all due respect, Mr. Chairman, if I 
lined up the experts and had them sit----
    Chairman Smith. All of these experts have been unanimous. 
These experts have been unanimous in not recommending the ARM 
Mission, and you all just keep forging ahead, and I'm asking 
you why you're ignoring all these experts' advice.
    General Bolden. Mr. Chairman, because I believe in 
constancy of purpose. I believe that my job is to determine the 
direction in which this agency is going to go, recommend it to 
you and to the President, and then pick that path and follow 
it. We are on a path----
    Chairman Smith. Director, I'd rather you listen to the 
experts more than maybe yourself in this particular instance.
    General Bolden. I don't--I listen to the experts, and I----
    Chairman Smith. Well, I wish you would heed them and do 
what they recommend, but on that same subject of ARM, and 
another example of what I'm talking about, NASA's Advisory 
Council also said that you should conduct an independent cost 
estimate of ARM, and so far you have not committed to doing so. 
Will you commit today to conducting that cost estimate of ARM 
and the two mission options?
    General Bolden. We committed to the----
    Chairman Smith. That's a pretty easy answer, yes or no.
    General Bolden. We committed--because what you say we 
committed or what they recommended, we committed to them that 
when we get to beyond the mission concept review, which we have 
now done, that we will have an independent cost assessment----
    Chairman Smith. When can we expect to see that independent 
cost estimate since you're now at that point?
    General Bolden. I will get that to you, sir. We are not--I 
don't have a date for an independent cost assessment on the 
option that we've selected for ARM.
    Chairman Smith. Well, do you have a month?
    General Bolden. Mr. Chairman, I will take that for the 
record and I will get it to you.
    Chairman Smith. Is it this year, the next six months, the 
next three months?
    General Bolden. Mr. Chairman, you know, I will take it for 
the record and I will get back to you.
    Chairman Smith. Okay. You're kind of proving what I said 
about these answers.
    All right. Let me go to the next one. You proposed an 
overall cut in Planetary Science by $76 million, Orion by $98 
million, SLS by $344 million, and you've cut other space 
programs as well. That is why I happen to think the 
Administration is starving NASA.
    But in regard to SLS and Orion, those are over $450 million 
worth of cuts. You've got a situation where the GAO has said 
those $400 million cuts are a risk to the program, and now the 
launch date has gone from 2017 to 2018. It seems to me that the 
Administration's actions contradict their words, because if you 
look at the money, Earth Science may be a priority but Space is 
less of a priority.
    General Bolden. Mr. Chairman----
    Chairman Smith. When you look at the money, can you come to 
any other conclusion?
    General Bolden. Yes, sir. I would say--I would request that 
people look at performance, that you look at achievement. I 
would ask people to look at the fact that we flew Orion in 
December. We finished----
    Chairman Smith. But if you look at the budget, if you look 
at the budget and you're cutting space and you're increasing 
Earth Science, doesn't that suggest that the Administration has 
a greater priority for Earth Science than Space?
    General Bolden. Mr. Chairman, if we look at the money, we 
spent--since this Administration has come into office, we have 
spent $49 billion on----
    Chairman Smith. I understand all that, but if you look at 
the cuts, don't cuts mean something?
    General Bolden. Cuts mean that we are trying to effect--we 
are trying to select priorities and get the missions and the 
goals----
    Chairman Smith. That's my point. Your priority is not 
space; it's something else.
    General Bolden. Our priority is--our priority is very 
clear. We are on a journey to Mars. We are trying to continue 
to get support from this Congress and the Administration on 
that journey to Mars. We have demonstrated that we know what 
we're doing.
    Chairman Smith. Then why did you cut the Space programs? 
You have SLS slipping a year. You're not going the right 
direction if Space is a priority. I'm not saying it's not a 
priority but it's less of a priority because of what those cuts 
represent.
    General Bolden. Mr. Chairman, we have provided an 
availability for launch date for SLS and the Exploration Ground 
Systems as we have gone through our formal process of 
evaluating schedules and----
    Chairman Smith. And it's gone from 2017 to 2018.
    General Bolden. We never presented a formal finding. We did 
not go through the formal process when we came up with a date 
of 2017. It's like Europa. I think I can do Europa in 2029. We 
will know----
    Chairman Smith. You don't consider 2017 to 2018 to be a 
delay then?
    General Bolden. I do not consider it to be a delay, Mr. 
Chairman.
    Chairman Smith. This may be the only Administration in 
history that doesn't consider going from 2017 to 2018 being a 
delay. I happen to think it is.
    I'll yield back. My time is expired.
    Chairman Palazzo. Thank you, Mr. Chairman. At this time the 
Chair recognizes Mr. Perlmutter for five minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    Administrator Bolden, good to see you. I do think that 
Chairman Smith and I are in total agreement on our desire to 
get our astronauts to Mars and to be very focused in that 
respect, and there are obviously other things that need to be 
done, whether it's looking back at Earth or looking farther 
into space. I would take issue with a couple of my colleagues. 
You know, to me, NASA is by far the preeminent space 
exploration agency in the world.
    Now, I think what's important, and I think the real problem 
here--and the Chairman and I have had this conversation--is 
that I think we can get to Mars, and I would like to see us 
accelerate the time frame of us getting to Mars and do the 
other things that are important in terms of weather satellites 
and a number of the other responsibilities that you all take 
on, and I'd like to pull up a chart, because I think this is 
the real problem, and we've had this conversation.
    So this is NASA's budget as a percentage of the federal 
budget over the last 40 years, and so as a result, we see when 
in the early years in 1962 through 1968 where your budget 
peaked, which was our effort to get to the moon, and it 
succeeded. But we had as a nation, we had to dedicate ourselves 
to doing that, and it cost us money, and since then, we have 
not been prepared as a nation to make it the priority that it 
was back then, and so you then are in a position where you have 
finite resources, which I think are too low for your agency, if 
our goal is to get to Mars and get there sometime within my 
lifetime. You know, I want to see us get there by 2020. I have 
no idea exactly how you can do it but I want to make sure you 
have the resources to do it and to do the other things that are 
important to the mission, whether it's MAVEN and understanding 
the atmosphere and what the heck happened as a precursor to us 
going to Mars.
    And so I'd like you just to kind of respond to my rant if 
you would, and your budget as a percentage of federal spending.
    General Bolden. Congressman, I appreciate your rant to be 
quite honest, and in many ways you're correct. But I don't want 
people to lose sight of what we've been doing over the last 40 
years. We have been flying robotic precursors throughout this 
solar system for 40 some-odd years now. We have been on Mars, 
the only nation in the world to successfully land an operating 
vehicle on Mars. So those precursors are very important to our 
human journey to Mars.
    We can't get there without the precursor missions because 
there are things we still don't understand. We can't get there 
without developing the technologies such as solar electric 
propulsion. We can't get there without developing the 
techniques such as operating in and around low-gravity and no-
gravity bodies, all things that the ARM mission we hope will 
do. We can't get there without Commercial Crew and cargo. We 
have to get away from reliance on the Russians.
    When we lost Columbia, nobody planned for that. The only 
way we were able to sustain our occupancy of the International 
Space Station was to call on our partners the Russians and to 
rely on them for a period of time. That has been far too long. 
With the funding that this budget requested, we can return the 
launch of our astronauts to American soil and that is 
absolutely critical. I don't think--when it gets down to the 
basic fundamental question here, I don't think there's any 
disagreement between me and anybody on this panel. We all want 
to get humans to Mars. There is a correct way to do that and we 
cannot do it by saying we're going to fly a one-way mission or 
we're going to fly a solar electric propulsion vehicle out and 
bring it back. There is a progression through which we have to 
go. We've got to go from being Earth-reliant, go to the proving 
ground, and then get on out to Mars and be Mars-ready. And 
those are programs that are slow-developing that take time to 
make sure that we're doing the right thing, and that's what 
we're doing. We----
    Mr. Perlmutter. All right. Well----
    General Bolden. We are trying to institute constancy of 
course.
    Mr. Perlmutter. Well, I do want to thank you and I felt it 
was a very successful mission, the first test flight of Orion, 
and I do want to see us accelerate. So to some degree I do 
agree with the Chairman. If we can continue to have our major 
focus getting to Mars, that's what I would like to see it be. I 
think we've got to, if that's the kind of mission and 
dedication we have, you have to see some increase in your 
budget so that we can do all the steps necessary to get us 
there and get us there promptly. Because if we're going to 
really have a mission that the nation can embrace and embrace 
enthusiastically, like they did that first test flight, we've 
got to keep it moving. You can't have too much time lag----
    General Bolden. Yes, sir.
    Mr. Perlmutter. --through this process. And with that, I 
have a whole bunch of other questions but I'll save those for 
my next round.
    General Bolden. Yes, sir.
    Mr. Perlmutter. And I yield back to the Chairman.
    Chairman Palazzo. I want to thank the gentleman.
    At this time the Chair recognizes Mr. Rohrabacher for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    The one thing that I've learned in my life is that people 
who try to do everything for everybody end up not being able to 
do anything for anybody. And that's why it's so important to 
make sure that we have goals in mind that are achievable as a 
package rather than just independently each goal is an 
important goal. And I would just have to say that I believe 
that we are not doing that. And I say ``we.'' I don't mean just 
you. I mean all of us. We're part of the team that's--we are 
America's space team and it's not just NASA. It's all of us in 
this committee as well.
    I think we have overreached and it will prevent us from 
accomplishing some very important goals that--we hear the 
arguments and I think they're legitimate arguments about having 
NASA being involved in global warming research and other things 
that are not--shouldn't be priorities. I understand the 
position you're in and you're doing a job in defending what the 
Administration's goals are and the Administration hired you on 
to this job to do this.
    But let me just say I don't think that we are going to 
achieve the goals, even the important goals, unless we start 
being more realistic.
    Let me ask you. I of course have been one over the years 
promoting--rather than the trip to Mars I've been promoting, 
utilizing the commercial involvement in space in order to let 
us accomplish things that are accomplishable in space. And the 
Commercial Crew launch system, and by your own budgets have 
suggested that the idea of going the more commercial direction 
actually is a valid methodology of achieving our space goals, 
our certain space goals at a cost-effective way.
    And I understand that of course we've got--we're now 
dependent on the Russians to buy six seats per year from the 
Russians in order to do--in order to maintain Space Station at 
a cost of $76 million per seat, is that correct?
    General Bolden. That's approximate, sir.
    Mr. Rohrabacher. Okay.
    General Bolden. Presently.
    Mr. Rohrabacher. And basically we are looking forward to 
the fact that Commercial Crew, the Commercial Crew Program will 
free us from that obligation. And, however, just a two year 
delay in what we have expected from Commercial Crew, we have a 
two year delay. That by my calculation is $900 million extra 
that we're spending for the Russians because the Commercial 
Crew formula has had to be pushed off for two years. Is that 
right?
    General Bolden. That is correct, sir, and that is a delay. 
When I came into this position and we presented the Commercial 
Crew Program to this Congress and the Administration, we 
proposed a level of funding that would have had us launching 
this year. We did not get that level of funding. We did not get 
the----
    Mr. Rohrabacher. That's correct.
    General Bolden. --continuous support, and so we now hope to 
launch in 2017.
    Mr. Rohrabacher. Well----
    General Bolden. If we don't get what we ask for this year, 
then--because we now are working on contracts----
    Mr. Rohrabacher. Well, General, let me note that--I agree 
with what you're saying, and the reason why we've had--we did--
you didn't get the money is because we're draining money off 
for other projects like flying off to Mars in the long run and 
costing us almost a billion dollars because we haven't--you 
know, we're not doing things responsibly. That's a billion-
dollar waste as far as that--I'm concerned.
    And let me just put it this way. If you calculate that--if 
you are calculating that a Commercial Crew approach and doing 
this through a commercial rather than through the old system 
that we had is actually going to save money in the long run, 
why are we--and we're pouring--at the same pouring money into 
global warming, but also in the SLS and the Mars concept of 
putting a man on Mars rather than just rely on robots. Don't we 
have--there's been some indication by one of the companies 
that's providing us Commercial Crew, SpaceX, that the owner of 
that company has said, well, he himself is interested in 
financing a trip to Mars. So if we do--if we have recognized 
that there is validity to letting the private sector get 
involved in this, why are we spending so much in the long run 
on Mars, which is costing us money in the short run because 
we're not budgeting correctly? Why don't we just hold off on 
spending money and going to Mars to see if the private sector 
can contribute to that effort?
    General Bolden. Mr. Chairman--or Mr. Congressman, the 
reason we're spending the money on it or we're investing is 
because experience has told us that only nations do the things 
that we're trying to do. Commercial companies will follow I 
hope. Commercial companies followed us to low-Earth orbit. We 
now have two companies that provide cargo support and hopefully 
two years from now will provide crew support. But that's only 
because we blazed the trail.
    There is--I don't care what anyone says. Getting to Mars is 
hard and there is no commercial company that without the 
support of the government and without the support of NASA is 
going to independently take a trip to Mars, so I would hope 
that no one on this Committee----
    Mr. Rohrabacher. The same--let me----
    General Bolden. --buys into that.
    Mr. Rohrabacher. So let me note that the same thing could 
have been said in terms of providing transportation to 
government programs for astronauts, the same thing could have 
been said about the commercial sector 10, 20 years ago. The 
private sector has a lot to contribute and I would hope that we 
don't have our long-term projection into Mars as a government 
program doesn't cost us these extra billions of dollars that 
could be put to use by NASA or by the private sector in 
accomplishing some goals right now. Thank you very much----
    General Bolden. Yes. Thank you.
    Mr. Rohrabacher. --Mr. Chairman.
    Chairman Palazzo. I want to thank the gentleman.
    At this time the Chair recognizes the Ranking Member of the 
full committee, Mrs. Johnson.
    Mrs. Johnson of Texas. Thank you very much, Mr. Chairman, 
and I apologize for being late. I had an essential meeting that 
I had to attend.
    And let me welcome the Administrator and thank you for your 
long-time and continued service to this nation.
    As the Chairman and others have indicated, we're here to 
review NASA's fiscal year 2016 budget request. And before I 
discuss specifics, I'd like to say that I appreciate the 
President's commitment to NASA as expressed in his budget 
request, as well as his support for R&D overall. It is clear 
that he understands the importance of investing in our nation's 
R&D enterprise, of which NASA is a key component.
    So while I may differ on some of the specific funding 
decisions reflected in this budget request, I think that NASA's 
overall request is a good starting point for our deliberations, 
and I hope that Congress will at least equal that budgetary top 
line, if not exceed it.
    Because the reality is that successive Congresses and 
Administrations have tasked NASA with a number of critical 
important endeavors and yet we have lagged in our providing the 
resources needed to carry them out. The truth is that NASA's 
buying power has actually decreased, as it has been pointed out 
here, by 15 percent from fiscal year 2005 to fiscal year 2013 
and is expected to continue to decline if the budgetary outlook 
doesn't improve. So, Mr. Chairman, the hardworking men and 
women of NASA really does deserve better.
    Let me cite an example. Just about a year ago, a 
distinguished panel of the National Academies completed its 
review of the Nation's Human Space Exploration Program. The 
panel was headed by former Governor and OMB Director Mitch 
Daniels, an individual well known for his fiscal conservatism, 
which makes the panel's conclusions even more impressive, 
namely America's Human Spaceflight Program is worth continuing. 
Mars is the appropriate goal. The government needs to come to a 
consensus on a pathway to Mars--and I don't believe that 
commercial is going to happen until first the government 
reaches it, a set of interim destinations and milestones of 
course, and it's going to require funding above the constant 
dollars if NASA is to succeed.
    So that's pretty unambiguous advice that we have failed to 
follow. So it came as a bit of a shock to me that the very next 
budget request for NASA to be submitted after the report's 
release would actually propose cutting the funding for the 
Space Launch System of Orion--two fundamental enabling elements 
of the Human Exploration Program--is directly counter to the 
National Academies' findings, and I think that Congress needs 
to correct that.
    Neither has NASA yet told us how it plans to get to Mars. 
What's the pathway or the roadmap? NASA needs to look beyond 
just the next four or five years and lay out the milestones it 
needs to pursue to get humans on Mars, as the National 
Academies panel made clear. Defining such a roadmap is not just 
for NASA's benefit. None of what NASA has done has been for 
NASA's benefit as such. It has benefitted our nation and our 
world.
    Congress and the American people will need to be confident 
that NASA has a well-thought-out plan if we are going to be 
able to sustain support for such an ambitious understanding 
over the coming years. I am sure we will discuss further during 
this hearing so I won't pursue this any further now.
    NASA is a crown jewel of America's research and development 
enterprise. It advances knowledge, promotes technological 
innovation, projects a positive image of America throughout the 
world, and inspires especially our young minds. Its workforce 
is dedicated and accomplished and I really do think that NASA 
deserves our support.
    I want to ask this question as my time is running out. How 
do NASA employees beyond your leadership feel in terms of their 
confidence of gaining greater steps towards reaching Mars and 
the goals for getting there when when we are not providing the 
adequate money?
    General Bolden. Congresswoman, I'm a person who believes in 
metrics. The best metric we have for how NASA employees feel is 
something that's done by the Partnership for Public Service, 
and it results in a listing of best places to work in the 
Federal Government. For the last three years, the number one 
place to work in the Federal Government in our class has been 
NASA, and I think that speaks to the attitude, the enthusiasm, 
the excitement of the people in the agency.
    I just came back from Georgia Tech last week. Young people 
want to come work for us because they're excited about what 
we're doing. And they want to do things that have not been done 
before. They are excited about Mars, and the workforce. There 
are all kinds of intangible things that you do that tell you 
what the attitude of a workforce is. If you go over there right 
now, we're engaged in a fitness challenge that goes over the 
next two weeks or so, I mean people stepping in line as they 
order their sandwiches. That may not seem like a significant 
thing to most people, but to us, that says that we have a 
workforce of 18,000 people who are enthusiastic about what 
they're doing, who are excited, and who believe we can deliver 
on the things that we say we can deliver.
    We're on a journey to Mars. We have a plan to get there and 
we have delivered on that plan. As we go through the budget 
horizons, within the budget horizon we've flown Orion into 
space. We've tested the RS-25 rockets that are going to go on 
the first two missions. We've fired the solid rocket booster 
out in Utah. We have done the things that are inside the budget 
horizon because that was a concrete plan with money put toward 
it.
    We talk to your staffs about 20, 30 years out and so I 
would hope that they all were very much aware of the 
deliberations that were going on on the Asteroid Redirect 
Mission, the fact that we had two options--that we were looking 
at two options, that we came to the decision that we did 
because we were looking for the best option that supported the 
journey to Mars and kept us on that journey.
    So I hope that if you talk to any of my employees, they 
would tell that they're excited about what we're doing.
    Mrs. Johnson of Texas. Thank you. My time is expired.
    [The prepared statement of Mrs. Johnson of Texas follows:]

          Prepared Statement of Full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning, and welcome Administrator Bolden. I look forward to 
your testimony, and I thank you for your continued service to this 
nation.
    As the Chairman has indicated, we are here to review NASA's Fiscal 
Year 2016 budget request. Before I discuss specifics, I would like to 
say that I appreciate the President's commitment to NASA as expressed 
in this budget request, as well as his support for R&D overall. It is 
clear that he understands the importance of investing in our nation's 
R&D enterprise, of which NASA is a key component. So while I may differ 
on some of the specific funding decisions reflected in this budget 
request, I think that NASA's overall request is a good starting point 
for our deliberations--and I hope that Congress will at least equal 
that budgetary top line, if not exceed it. Because the reality is that 
successive Congresses and Administrations have tasked NASA with a 
number of critically important endeavors, yet we have lagged in 
providing the resources needed to carry them out. The truth is that 
NASA's ``buying power'' has actually decreased by15 percent from Fiscal 
Year 2005 to Fiscal Year 2013 and is expected to continue to decline if 
the budgetary outlook doesn't improve. Mr. Chairman, the hardworking 
women and men of NASA deserve better.
    Let me cite an example. Just about a year ago, a distinguished 
panel of the National Academies completed its review of the nation's 
human space exploration program. The panel was headed by former 
governor and OMB Director Mitch Daniels, an individual well known for 
his fiscal conservatism. Which makes the panel's conclusions even more 
impressive, namely: America's human spaceflight program is worth 
continuing, Mars is the appropriate goal, the government needs to come 
to a consensus on a pathway to Mars--that is, a set of interim 
destinations and milestones--and it's going to require funding above 
constant dollars if NASA is to succeed.
    That's pretty unambiguous advice.
    So it came as a bit of a shock to me that the very next budget 
request for NASA to be submitted after the report's release would 
actually propose cutting the funding for the Space Launch System and 
Orion, two fundamental enabling elements of the human exploration 
program. It's directly counter to the National Academies' findings, and 
I think Congress needs to correct that.
    Neither has NASA yet told us how it plans to get to Mars-what's the 
pathway or roadmap? NASA needs to look beyond just the next four or 
five years and lay out the milestones it needs to pursue to get humans 
on Mars. As the National Academies panel made clear, defining such a 
roadmap is not just for NASA's benefit. Congress and the American 
people will need to be confident that NASA has a well thought-out plan 
if we are going to be able to sustain support for such an ambitious 
undertaking over the coming years.
    There are other examples in the budget request that I could cite as 
areas of concern: the cuts made to NASA's Education program, to 
Aeronautics, and to Planetary Science, among others. However, I am sure 
we will discuss them further during the hearing, so I won't pursue them 
here. Instead, I will close by
    saying again what I have said many times already: NASA is a crown 
jewel of America's research and development enterprise. It advances 
knowledge, promotes technological innovation, projects a positive image 
of America throughout the world, and inspires. Its workforce is 
dedicated and accomplished. NASA deserves our support.
    Thank you, and I yield back the remainder of my time.

    Chairman Palazzo. Thank you, Ms. Johnson.
    At this time the Chair recognizes Mr. Lucas for five 
minutes.
    Mr. Lucas. Thank you, Mr. Chairman.
    And thank you, General, for being here today.
    Clearly, many of our colleagues are very concerned about 
how we not only maintain the flow of scientific accomplishments 
and the support of the American public, and a great deal of 
focus here has been on Mars and what it requires to get there. 
Let me take you back for a moment, though, a little closer to 
home and let's talk about the James Webb Space Telescope. There 
are a few things I think that have caught the imagination of 
the public to the degree that the Hubble has over the course of 
the last 25 years, tremendous science. It's also brought the 
American public along with us. James Webb, with its literally 
quantum leap forward, I personally believe has the ability to 
continue that attention span of the American public.
    But let's talk for a moment about the process of getting 
that done, the delays we've gone through, the setbacks, some of 
the challenges with the cryocooler. Do you believe that the 
telescope will still be able to launch on schedule and still be 
within budget?
    General Bolden. Mr. Congressman, I firmly believe because I 
have personally been involved in the oversight of the James 
Webb Space Telescope from the time we brought our restructured 
plan to this Congress and to the White House. So I can speak 
with confidence that we're on schedule and below cost right now 
for delivering James Webb in 2018. I think we will make that.
    You mentioned the cryocooler. That presented a 
technological challenge that, you know, we always know that 
they're going to be difficult things but I work with Wes Bush, 
the Chairman of Northrop Grumman Corporation. We have telecoms 
every month because we both realize the significance of the 
James Webb Space Telescope. So it is something that I take very 
seriously and I think we're going to launch in 2018.
    Mr. Lucas. And the differences, of course, between Hubble 
and James Webb where we're putting out in orbit, the fact that 
we can't repair it, it has to be perfect the first time.
    General Bolden. That's the challenge.
    Mr. Lucas. One of the miracles of NASA was the fix----
    General Bolden. Yes.
    Mr. Lucas. --on Hubble early on, one of the great 
accomplishments.
    Tell me, James Webb is a rather substantial portion of your 
budget and has been in recent years. Hopefully, we're on the 
verge of completion of that. Where do you envision that slice 
of the pie winding up when it's not committed to the 
development and the testing and the launching of James Webb?
    General Bolden. That slice of the pie that some people 
refer to as a wedge is what is now going into the planning for 
the nonbudget years, the out years, 20, 30 years out. And there 
are a number of projects that are being considered, WFIRST and 
AFTA, an advanced telescope for space, telescopes on the moon. 
There are any number of things that the science community has 
no shortage of ways that they would like to spend the wedge, 
but I assure you that we have what we call a strategic 
implementation planning process where we try to look at the 
things that come in--we help inform the decadal surveys which 
Chairman Smith referred to, but we will get input in the 
planetary decadal survey, for example, in 2021. So we're trying 
to do our research and inform them now such that when they 
recommend something to us, it is something that is achievable.
    Mr. Lucas. Once again, Director, your personal involvement 
demonstrates the importance of the James Webb and----
    General Bolden. Critically important.
    Mr. Lucas. --enhances your level of confidence that we will 
get there on time, on budget, and in the way that we need to 
be.
    Let's come even a little closer to home so to speak for 
just a moment to that and discuss the unmanned aerial systems. 
NASA is expected to build one, the UAS Traffic Management 
System, UTM, in FY 2016 to help integrate all of this into the 
National Airspace System. I guess my question is when we've 
talked about private challenges and opportunities in all of 
these areas, explain to me again why NASA is taking the lead on 
this traffic management instead of somebody in the private 
industry.
    General Bolden. Because we have the expertise. You know, if 
you look at the Langley Research Center and Ames Research 
Center and to some extent Glenn, we have the national 
capability, the national expertise is resident in NASA. We 
could pass it off to industry except people like working for 
us, and so people come to NASA when they want an answer about 
things that deal with aeronautics, and we're very proud of the 
packages that we have delivered to the FAA and to the airlines, 
for example.
    There is an en route traffic management package that we 
delivered to the FAA that's being tested by American Airlines 
primarily out of Dallas. I went down and worked with them or 
talked to them several months ago and they are thrilled with 
the package. We have a departure package that is in the hands 
of U.S. Airways down at Charlotte right now. We're working on 
unmanned aerial systems trying to help the FAA go about 
revising their regulations so that people can get unmanned 
aerial systems into the National Air Transportation System.
    Mr. Lucas. Are you confident, General, that we're going to 
wind up with a system that can support what potentially will be 
a very complex environment out there with the interest shown by 
industry and everyone? It's hard to tell just where this----
    General Bolden. Yes.
    Mr. Lucas. --will ultimately lead to.
    General Bolden. I am very confident that we will make 
advances. I am not confident that we will stay ahead of 
industry and entrepreneurs. So, you know, as you said, NASA can 
only do so much. We work with the FAA, we work with the 
Department of Defense, we're working with industry, we're 
working with everyone, but the pace of spending on technology 
is not keeping up with the pace of innovation on the part of 
the private sector, and that's why when we talk about needing 
money for NASA's Space Technology Program, that is not just 
about space. The Space Technology Program looks across our--
much of their work is done to support the Science Mission 
Directorate. We've got to put more money into technology 
development if we're going to keep pace with the private 
sector. Otherwise, they'll dwarf us.
    Mr. Lucas. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Palazzo. At this time the Chair recognizes Mr. 
Knight for five minutes.
    Mr. Knight. Thank you, Mr. Chairman.
    And, General, I have a couple questions. I know a lot of 
people have been talking about the A in Aeronautics in NASA and 
so I have a few questions but I would like to make a couple 
comments that I do believe that it is a top goal to go to Mars. 
I think that that is a laudable goal for humankind. I think 
that over the last 60 years we've seen quite a lot of jumps and 
leaps, and in your business you can't jump a step because when 
you do, you lose data and you lose lives. So I understand that 
very well.
    There are a couple systems in aeronautics that have made 
our lives better and have made our war fighter better. And I 
know that Ranking Member Edwards hit on one with the winglets 
on our airliners. But you have a couple systems that have gone 
into place in the last couple years like our GCAT and our 
collision avoidance for our war fighter being now employed in 
our F-16s in their day-to-day efforts. And also with the F-15 
sonic boom jousting that you did much testing on in the last 
five or ten years, which I appreciate because if you could ever 
do that, then I wouldn't have a five hour flight back to 
California; I'd have an hour-and-a-half flight.
    So I appreciate all of those missions in aeronautics. I 
don't appreciate the three percent budgeting for aeronautics, 
and I think that that's a bone of contention probably with many 
people on this dais and I'm sure we can talk about that.
    But one of the programs that was talked about was the James 
Webb and it is true; once the Webb telescope goes, it's gone. 
But there is a telescope that we bring back to Earth every day 
and we fly it about three or four times a week, and that's 
SOFIA. SOFIA takes up fourth and fifth graders, teachers, and 
does great science projects about three or four times a week. 
It's a joint mission with Germany. I know you know this very 
well. And Germany has just placed a whole bunch of money in 
reconfiguring and redoing the SOFIA telescope.
    So I'd like to hear a little bit of the status of SOFIA, 
the future of SOFIA because there's been such changes that 
we're going to have a senior review by about '18 or '19, which 
would have been five years into the project, which is--that's 
about right. And now we've heard that we're going to be in 
spring of 2016, which is only two years into its fully 
operational period. So I'd like to hear just a little bit of 
status on SOFIA.
    General Bolden. Congressman, SOFIA is doing awesome, as you 
said. It represents a unique capability in that it is an 
airborne platform, and we can change out the instruments on it. 
That's the advantage we have there.
    The reason that we moved the senior review up was very 
similar to the reason that we had an early senior review with 
Hubble. In the early days of Hubble the senior review was 
scheduled to be years away. We knew that we were going to want 
to upgrade the observatory, and in order to do that, the best 
way to do it was to hold a senior review to look at both the 
present performance but also what are the things that we need 
to be thinking about in the future to enhance its ability to 
perform.
    So the senior review is not just to determine whether or 
not it's performing and whether it's worth the money we spend 
on it but will also give us some guidance as we go forward 
about what we should think about for future instruments. So I 
would say, you know, an important part of the future of SOFIA 
is how much are our German partners going to be willing to put 
in because it is a partnership? It's a critical partnership, 
but if they say that we're not going to put in any more money 
so you pay for it, then that puts us at a--you know----
    Mr. Knight. No, sir, and I agree----
    General Bolden. --a fiscal dilemma.
    Mr. Knight. --it is a partnership and I think that their 
commitment, because of the refurb and all of the work that 
they've done in the last year is--but I will go back to 
aeronautics and talk about this just a little bit more in my 
last 45 seconds.
    You know, we're going to move forward with other programs 
out in aeronautics and they're going to enhance our lives and 
they're going to help us survive in a crash, help us maybe 
maintain a better lifestyle. Intelligent flight control systems 
I know is something that NASA is working on and I appreciate 
NASA for doing digital fly-by-wire and all of the kind of 
experiments to get us up to this.
    So that's what I will say. With the three percent--it 
doesn't look like the commitment to aeronautics is as much as 
it has been in the last 40 years. And part of that might be 
because we don't have a solid X-Plane mission. And if we would 
revisit the X-Plane mission, and I know that that's something 
that you've talked about and I know that that's something that 
NASA has talked about, but in today's age an X-Plane mission 
might be a joint effort, not with the Air Force but with a 
private industry. And you've seen that with other things like 
the Dream Chaser or other programs.
    So that is my request that we revisit that.
    General Bolden. Yes, sir. Thank you very much.
    Mr. Knight. Thank you, Mr. Chair.
    Chairman Palazzo. The Chair wants to recognize Mr. Johnson 
for five minutes.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman.
    General Bolden, you and I have had chances to talk. I think 
you know that I'm a big NASA fan, you know, from Buck Rogers to 
James Kirk to the real-life accomplishments of John Glenn and 
Neil Armstrong and so many other pioneers of space travel. I'm 
one who believes that regardless of the mission that the 
sciences, technologies, and great marvels of discovery that 
have been realized through our space program have bettered our 
country and have bettered the world in so many, many ways.
    So that is a backdrop for my questions. Just one right up 
front, General Bolden, does NASA believe, do you believe that 
the Asteroid Mission will help with planetary defense, which is 
contrary to the findings of the Small Bodies Assessment Group 
and the asteroid experts?
    General Bolden. Congressman Johnson, as I have said before, 
I don't want to overpromise or over-commit but we believe that 
the Asteroid Redirect Mission, when flown and if the science is 
the way that we think it is will inform those who follow us in 
developing concrete technologies and systems to deflect 
asteroids or to protect the planet if you will. So it will 
contribute to our ability to deflect asteroids, and that's why 
I told both Congressman Posey and Congressman Brooks, I can 
answer the question today. I couldn't two years ago. We have a 
plan to do that.
    Mr. Johnson of Ohio. Okay. General Bolden, you know, the 
United States is presently sanctioning the Russian Federation 
in the field of high-tech exports as a result of Russia's 
actions in the Ukraine. Last summer, the Russian Deputy Prime 
Minister Dmitry Rogozin even threatened to cut off American 
access to the Station saying that we could get there by jumping 
on a trampoline if we wanted to, what absurdity.
    If the Russian Federation followed through on these threats 
and withdrew cooperation, how would the Space Station be 
affected?
    General Bolden. Congressman Johnson, we have a plan today. 
When people ask me about my contingency plan, we're two years 
away from having our own capability of sending our crews to the 
International Space Station. That will take us away from 
reliance on the Russians. We currently are--contrary to what's 
in the paper and the political and diplomatic relations between 
the two countries, Station continues to be the perfect example, 
the role model if you will for international relations and 
collaboration and cooperation.
    Mr. Johnson of Ohio. Let me point out, General Bolden, you 
know, in kind of an explanatory to what some of my colleagues 
have said. This is what we mean, what you just commented on 
there, that we're two years away from being able to deliver to 
the Space Station ourselves. We can't disregard what's in the 
media. We can't disregard the public perception. And when we 
tell you--and I'm one that agrees that we are and we will 
remain forever the premier space explorer in the world. I 
understand that. The general public does not. And when they see 
and they read in the media that we have to hitchhike with the 
Russians to the Space Station, that's the perception that is 
out there. And you know as well as I do that reality is 
oftentimes dictated by perception. It's not reality.
    If absolutely necessary, then could Boeing or SpaceX send a 
human mission to the Space Station in the near future?
    General Bolden. No. If you're calling the near future 
sooner than 2017, no.
    Mr. Johnson of Ohio. Okay. All right.
    Do you think NASA could down-select to one provider 
immediately and devote all of its resources to be ready sooner, 
any plan mitigation that you could do to get us ready sooner?
    General Bolden. I think the path on which we are currently 
embarked with two providers, it maintains competition, it 
guarantees that I will have the safest vehicle possible, and I 
think if we down-selected to one, it would not speed up the 
process at all. It may even slow it down because then that one 
provider becomes the monopoly that dictates to me what it can 
or can't do and what it will and won't do.
    We have fixed-price contracts with them today and I can 
tell you, it's interesting to engage with the two providers in 
discussions about what we think the vehicle should be able to 
do because they know that if they don't perform--you know, they 
have a contract right now that's for up to six missions.
    Mr. Johnson of Ohio. Um-hum.
    General Bolden. It is not a good business model to say I'm 
going to fly six missions and then I'm going to get out of 
this. So they all want to be the contractor for life for 
Commercial Crew.
    Mr. Johnson of Ohio. I get----
    General Bolden. So they want to perform
    Mr. Johnson of Ohio. I get that. And of course from your 
background you understand the relevance of the question. The 
Russians are getting increasingly testy with their rhetoric, 
with their boldness, with their trouncing upon their European 
friends and neighbors, everything from cutting off gas supplies 
to forcing us to jump on a trampoline to get to the Space 
Station. So what happens over the next two years if tomorrow 
the Russians were to say you're out? What would we do? What's 
NASA's plan?
    General Bolden. Well, Congressman Johnson, first of all, 
the Russians can't say you're out because it's not a Russian or 
an American space station. The Russians can decide to withdraw 
from the International Space Station, which we'd have to 
adjust, but as I have said before, we would not----
    Mr. Johnson of Ohio. But what if they were to say we're not 
taking your people up there? What would happen? Because they 
could certainly say that. We might get mad about it and we 
might try to bring world pressure----
    General Bolden. Congressman, I'm----
    Mr. Johnson of Ohio. --but in the time----
    General Bolden. If--and I hate dealing in whatever we call 
them----
    Mr. Johnson of Ohio. Now don't go there because you--in 
your background you know you've got to have contingency plans 
for every----
    General Bolden. And I do. And I do.
    Mr. Johnson of Ohio. --outcome.
    General Bolden. And that's why I said we have probably the 
best contingency plan possible, considering where this nation 
is, and that contingency plan is to fully support Boeing and 
SpaceX to flying in 2017.
    Mr. Johnson of Ohio. No, I'm asking you what you're going 
to do over the next two years if the Russians say you're not 
going with us.
    General Bolden. I am going to continue to work with my 
Russian partners to continue to encourage them to be as 
enthusiastic about maintaining the International Space Station 
as they are now. I would call it to everyone's attention the 
same Deputy Prime Minister Rogozin who was going to put me on a 
trampoline Tweeted out after my meeting with my counterpart 
that the Russians had decided that it's a good idea to stay 
with the Space Station until 2024.
    Mr. Johnson of Ohio. Well, General, I'll----
    General Bolden. That's what I do.
    Mr. Johnson of Ohio. I respect you greatly and I respect 
what NASA does, but what you've basically told me is that there 
is no option, there is no plan within the next two years if the 
Russians pull out, other than hoping like hell that they don't. 
And I would say I understand the pressures that you're under 
and I understand that that may be an avenue, but things have 
changed a lot over the last two years in our relationship with 
the Russians, and I hope somewhere in the dark rooms of NASA 
you guys are considering what we're going to do if they pull 
the plug because they could.
    Mr. Chairman, I yield back.
    Chairman Palazzo. The Chair now recognizes Mr. Babin for 
five minutes.
    Mr. Babin. Thank you, Mr. Chairman.
    General Bolden, thank you for being here.
    Over the past several years, part of the NASA Authorization 
Act of 2010 NASA has been systematically reducing its footprint 
and operational costs by closing various facilities, 
laboratories, and test structures. And it leaves many in the 
ranks and surrounding communities to question if a center 
closure perhaps is next.
    Relative to the Johnson Space Center, which is in my 
district, Texas 36, are you aware of any organization, 
government, university, or private sector, proposed to any NASA 
officials or official at headquarters or at the center that 
management and operation centers be turned over to an academic 
institution or other entity similar to that of the Jet 
Propulsion Laboratory to operate as an FFRDC?
    General Bolden. Congressman Babin, I am aware that that is 
a recommendation that is out there forever. As long as I am the 
NASA Administrator, it is not a thing that I'm considering. So 
when you go back home to Houston, you can let people know there 
is no plan, not even the remotest plan to accept a 
recommendation from the experts that we turn JSC into an FFRDC.
    Mr. Babin. Okay.
    General Bolden. That is not going to happen, not on my 
watch.
    Mr. Babin. Well, I'm glad to hear that because that's--that 
is what's floating around out there around JSC, I can tell you 
that.
    All right. What is--what will--obviously your perspective 
on that, you obviously would not support that. That's my----
    General Bolden. I am saying the way that we're organized 
today, we have something called TCAT. I hate to use another 
acronym.
    Mr. Babin. Um-hum.
    General Bolden. We're looking at our technical 
capabilities. We're trying to find out how in this budget 
environment we maximize the utilization of the talent that we 
have, and that determines what we do to facilities. I see us 
reducing facility footprint everywhere because we don't need 
the historic infrastructure that we've had. I do not see us 
reducing to the point where we close a center, not in the 
foreseeable future.
    I cannot say that, you know, down the road I don't know 
what will come when someone else is sitting in this chair as 
the NASA Administrator, but there is nothing that we've done, 
no studies that we've conducted that say that would be the wise 
thing for us to do right now. We have one FFRDC. It is the Jet 
Propulsion Laboratory and that serves our purpose.
    Mr. Babin. Okay. Thank you. It's good to hear that.
    All right. To follow up on my previous question, relative 
to the agency's strategic planning and operational structure, 
are you confident that collectively the centers and their 
industry partners have the critical capabilities, resources, 
and infrastructure, as well as operational experience required 
to successfully implement the agency's core missions and 
objectives? And that would include engineering, mission 
operations, training, research, and systems development.
    General Bolden. I'm confident that the pathway that we're 
on, the budget that we have, and the pathway on which we're 
embarked is actually shaped by the budget that we have, so that 
everybody remembers that. I'm confident that we have the right 
people, the right facilities, and the like.
    You're probably aware, Dr. Ellen Ochoa, the Center 
Directorate at Johnson, made a major change in her 
organizational structure because she was trying to get to where 
she thinks we need to be to support an exploration program. So, 
you know, that's the prerogative of the team in the local areas 
as to how they organize to best do--to help us accomplish the 
agency's strategic mission. And she has to have the flexibility 
to do that.
    That causes, you know, a little kerfuffle because that 
means we're not going to operate the same way we did yesterday, 
and I like the way we operated yesterday if I happen to be a 
person who's affected by it. But all of our centers are making 
minor tweaks to be able to fit into the Mars pathway if you 
will.
    Mr. Babin. Right. Okay. So would you agree that JSC has a 
unique role in NASA's deep space exploration objective?
    General Bolden. Now, if Ellen Ochoa decided she was going 
to pull out of the International Space Station, I'd be 
affected. I'd be worried. That--they are vital----
    Mr. Babin. Okay.
    General Bolden. --you know. It's not like a threat from 
Russia pulling out of the International Space Station.
    Mr. Babin. Absolutely.
    General Bolden. That's where it's run so that's the reason 
that--you know, my contingency plan, again, going back to that, 
is to make sure that Ellen Ochoa and her team at the Johnson 
Space Center and Patrick Scheuermann and his team at Marshall, 
who happen to be the two primary centers for day-to-day 
operations of the International Space Station, make sure that 
they stay happy and appropriately occupied and manned is--I 
don't know what the right term is--peopled--staffed. Staffed.
    Mr. Babin. Staffed.
    General Bolden. And as long as Marshall is doing the 
science work for Station, and Johnson doing the human 
exploration, the human spaceflight preparation with our 
astronauts, as long as they're doing what they're doing and 
Kennedy Space Center is doing what it's doing, all the centers 
continue to do what they're doing today, then we're strong and 
we will continue to be the dominant operator of the 
International Space Station on whom everyone depends, to 
include the Russians.
    So I appreciate everyone's concern. You know, it would--I 
just appreciate everyone's concern.
    Mr. Babin. Absolutely, because there's a lot of concerned 
people there.
    General Bolden. Yeah.
    Mr. Babin. Thank you.
    I yield back, Mr. Chairman.
    Chairman Palazzo. I want to thank the gentleman.
    I also want to remind the Administrator that Goddard Space 
Flight Center and Stennis Space Center--I know, you just--you 
mentioned the other----
    General Bolden. I said all the other centers. I didn't want 
to--because I can't always remember all nine----
    Chairman Palazzo. It's like a grandfather trying to 
remember all of his grandkids' names.
    General Bolden. That's true. All I need to do is look in 
front of me.
    Chairman Palazzo. It's----
    General Bolden. Stennis----
    Chairman Palazzo. I've witnessed that personally----
    General Bolden. As you know, Mr. Chairman----
    Chairman Palazzo. --by my parents----
    General Bolden. --everything that goes through space goes 
through Mississippi, as we say at Stennis.
    Mr. Babin. And, Mr. Chairman, I'm fixing to have a grandkid 
today.
    Chairman Palazzo. Congratulations.
    Mr. Babin. Thank you.
    Chairman Palazzo. Congratulations.
    In closing, I want to follow up on your exchange with 
Chairman Smith. You said that you never formally committed to 
the 2017 launch date for EM-1. However, you have testified 
before this committee that the President's budget request for 
fiscal year '14 and fiscal year '15 would keep the EM-1 launch 
date for 2017. You even told this committee that if Congress 
gave you $300 million more, you wouldn't notice it.
    NASA could have presented Congress with a budget that kept 
the 2017 date, but instead they chose to delay the program, and 
I hope we can work together to keep SLS on track.
    With that, I want to thank General Bolden for his testimony 
and the Members for their questions. The record will remain 
open for two weeks for additional written comments and written 
questions from Members.
    This hearing is adjourned.
    General Bolden. Thank you very much, Mr. Chairman.
    Chairman Palazzo. Thank you.
    [Whereupon, at 10:52 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                      Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record


          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning, and welcome Administrator Bolden. I look 
forward to your testimony, and I thank you for your continued 
service to this nation.
    As the Chairman has indicated, we are here to review NASA's 
Fiscal Year 2016 budget request. Before I discuss specifics, I 
would like to say that I appreciate the President's commitment 
to NASA as expressed in this budget request, as well as his 
support for R&D overall. It is clear that he understands the 
importance of investing in our nation's R&D enterprise, of 
which NASA is a key component.
    So while I may differ on some of the specific funding 
decisions reflected in this budget request, I think that NASA's 
overall request is a good starting point for our deliberations-
and I hope that Congress will at least equal that budgetary top 
line, if not exceed it. Because the reality is that successive 
Congresses and Administrations have tasked NASA with a number 
of critically important endeavors, yet we have lagged in 
providing the resources needed to carry them out. The truth is 
that NASA's ``buying power'' has actually decreased by15 
percent from Fiscal Year 2005 to Fiscal Year 2013 and is 
expected to continue to decline if the budgetary outlook 
doesn't improve. Mr. Chairman, the hardworking women and men of 
NASA deserve better.
    Let me cite an example. Just about a year ago, a 
distinguished panel of the National Academies completed its 
review of the nation's human space exploration program. The 
panel was headed by former governor and OMB Director Mitch 
Daniels, an individual well known for his fiscal conservatism. 
Which makes the panel's conclusions even more impressive, 
namely: America's human spaceflight program is worth 
continuing, Mars is the appropriate goal, the government needs 
to come to a consensus on a pathway to Mars-that is, a set of 
interim destinations and milestones--and it's going to require 
funding above constant dollars if NASA is to succeed.
    That's pretty unambiguous advice.
    So it came as a bit of a shock to me that the very next 
budget request for NASA to be submitted after the report's 
release would actually propose cutting the funding for the 
Space Launch System and Orion, two fundamental enabling 
elements of the human exploration program. It's directly 
counter to the National Academies' findings, and I think 
Congress needs to correct that.
    Neither has NASA yet told us how it plans to get to Mars--
what's the pathway or roadmap? NASA needs to look beyond just 
the next four or five years and lay out the milestones it needs 
to pursue to get humans on Mars. As the National Academies 
panel made clear, defining such a roadmap is not just for 
NASA's benefit. Congress and the American people will need to 
be confident that NASA has a well thought-out plan if we are 
going to be able to sustain support for such an ambitious 
undertaking over the coming years.
    There are other examples in the budget request that I could 
cite as areas of concern: the cuts made to NASA's Education 
program, to Aeronautics, and to Planetary Science, among 
others. However, I am sure we will discuss them further during 
the hearing, so I won't pursue them here. Instead, I will close 
by saying again what I have said many times already: NASA is a 
crown jewel of America's research and development enterprise. 
It advances knowledge, promotes technological innovation, 
projects a positive image of America throughout the world, and 
inspires. Its workforce is dedicated and accomplished.NASA 
deserves our support.
    Thank you, and I yield back the remainder of my time.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
